OPERATIONAL ERRORS AND RUNWAY INCURSIONS:
     PROGRESS MADE, BUT THE NUMBER OF
INCIDENTS IS STILL HIGH AND PRESENTS SERIOUS
                 SAFETY RISKS
         Federal Aviation Administration

          Report Number: AV-2003-040
           Date Issued: April 3, 2003
           U.S. Department of
                                                   Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Report on Operational Errors and                    Date:    April 3, 2003
           Runway Incursions: Progress Made, but the
           Number of Incidents Is Still High and Presents
           Serious Safety Risks
           AV-2003-040
  From:    Alexis M. Stefani                                        Reply to
                                                                    Attn. of:   JA-10
           Principal Assistant Inspector General
            for Auditing and Evaluation
    To:    Federal Aviation Administrator


           This report presents the results of our review of the Federal Aviation
           Administration’s (FAA) progress in reducing operational errors and runway
           incursions. An executive summary of the report follows this memorandum. The
           objective of this audit was to determine whether FAA is making progress in
           reducing operational errors and runway incursions.

           After several years of continuous increases in operational errors and runway
           incursions, FAA has made progress in reducing these incidents. In fiscal year
           (FY) 2002, operational errors decreased 11 percent to 1,061 and runway
           incursions decreased 17 percent to 339 from FY 2001 levels. Despite FAA’s
           progress, the number of these incidents is still too high considering the potential
           catastrophic results of a midair collision or a runway accident. In FY 2002, on
           average, one runway incursion and three operational errors occurred each day.
           Further, the most serious runway incursions (those rated in the two high risk
           categories) occurred, on average, once every 10 days; and the most serious
           operational errors (those rated as high risk) occurred, on average, once every
           8 days. On average, in FY 2002, at least one commercial aircraft was involved in
           a serious runway incursion or operational error once every 10 days.

           It is important that FAA take additional actions to further reduce the number and
           safety risk of operational errors and runway incursions, especially since FAA
           projects that air traffic operations will return to pre-September 11th growth patterns
           between 2005 and 2007.
                                                                                  2


Our recommendations focused on the specific actions FAA needs to take to further
reduce operational errors and runway incursions. Recommended actions include:
• improving oversight of regions and facilities that do not show progress in
  reducing operational errors;
• implementing its human factors initiative for memory enhancement training for
  controllers;
• reexamining and expanding the severity classification for the most serious
  operational errors;
• implementing mandatory training requirements for controllers who make
  multiple operational errors or moderate and high rated operational errors;
• evaluating the impact the expanded Controller-in-Charge (CIC) Program has
  had on operational errors on a facility-by-facility basis; and
• implementing recommendations from its technological reviews completed at
  13 airports that had 10 or more runway incursions between 1997 and 2000.

On March 21, 2003, FAA provided written comments (attached as an Appendix to
this report) to our February 26, 2003 draft report.              Regarding our
recommendations for operational errors, FAA agreed with our recommendation to
improve its national oversight of the regions and facilities that do not show
progress at reducing operational errors, and indicated that these actions will be
completed by May 1, 2003. FAA also agreed with our recommendation to
implement its human factors initiative for memory enhancement training, but FAA
needs to provide a target date for implementation.

On March 28, 2003, FAA provided revised comments to address our
recommendations to revise training requirements for operational errors. FAA
officials stated that they are currently involved in a review of existing
Memorandums of Understanding (MOU), which includes re-examining the
provisions of the MOU on training requirements for operational errors. We
consider FAA’s proposed actions to be responsive to these recommendations and
will monitor FAA’s progress in this area.

However, FAA’s proposed actions regarding our recommendations on expanding
its severity rating system for serious operational errors, and monitoring the impact
of the expanded CIC Program on operational errors, do not fully address the intent
of our recommendations and are not responsive. Therefore, we are requesting that
FAA reconsider its response.

First, FAA did not indicate whether it planned to expand its severity rating system
for operational errors. This is important because some operational errors rated as
moderate are a very serious safety risk. For example, one operational error rated
as moderate involved two commercial airliners, approaching head-on at a closure
                                                                                     3


rate of 460 miles per hour; they were less than 12 seconds from a midair collision
when they took evasive action. FAA needs to accurately identify all serious
operational errors to ensure that it focuses resources on reducing the most
dangerous operational errors.

Second, FAA did not specify actions it planned to take to monitor the impact of
the expanded CIC Program on operational errors. The CIC Program was
expanded as a result of a 1998 agreement between FAA and the National Air
Traffic Controllers Association to reduce the number of air traffic control
supervisors by about one-third. To offset the reduction of supervisors, FAA
agreed to use CICs to provide oversight of air traffic operations during the absence
of supervisors. FAA agreed with our recommendation and stated that it will
include the program in its causative analysis efforts, but it is unclear whether these
efforts will include monitoring the impact of the expanded CIC Program on
operational errors. From calendar year (CY) 2000 to CY 2001, operational errors
that occurred while a CIC was on duty increased 46 percent. Until FAA conducts
detailed evaluations of those facilities that have significant increases in operational
errors while CICs are on duty, the reasons for the increases will not be known and
FAA’s ability to make additional progress in reducing operational errors will be
hindered.

In addition to the recommendations made in our draft report, we are making a new
recommendation for FAA to identify and monitor statistics on the number of
operational errors by commercial, general aviation, and military aircraft. This is
important in measuring the overall safety impact of operational errors. For
example, operational errors that involve commercial aircraft should be identified
and monitored because they can place hundreds of passengers at risk.

A complete description of our recommendations regarding operational errors,
FAA’s comments, and our response can be found on pages 17 through 20 of this
report.

Regarding our recommendations concerning runway incursions, FAA agreed to
implement recommendations in its Runway Incursion Airport Assessment Report
made as a result of technological reviews of 16 problem airports. FAA is working
at the field level to coordinate improvements to signs, surface markings, and
security made as a result of these recommendations. Of these 16 airports, FAA
identified 6 airports for improved airport marking and signs, and it indicated that
work at 4 of these airports has been completed. FAA is also working at other
airports to test improvements to surface operations. FAA plans to complete this
work in 2004 and begin to work at higher capacity commercial and general
aviation airports in 2005.
                                                                                 4


FAA also agreed to conduct technology reviews at 4 airports that had 10 or more
runway incursions over the 4-year period 1999 to 2002. FAA indicated the work
has already been directed and will be completed in 2003. When fully
implemented, these actions should help further reduce runway incursions.
Accordingly, we consider FAA’s proposed actions to be responsive, and we
consider these recommendations resolved.

In accordance with Department of Transportation Order 8000.1C, we request that
you reconsider your response regarding our recommendations concerning
operational errors, as noted on pages 17 through 20. We further request that you
provide specific actions taken or planned, with target dates, to address these
recommendations. We also request that you provide comments on the additional
recommendation, to identify and monitor statistics on the number of operational
errors that involve commercial, general aviation, and military aircraft. For this
recommendation, if you concur, please provide the specific action taken or
planned and a target date for completion. If you nonconcur, please provide your
rationale. You may provide alternative courses of action that you believe would
resolve the issues presented in this report. Please provide your response within
30 calendar days.

We appreciate the cooperation and assistance provided by your staff during the
audit. If I or my staff can provide you with additional information, please call me
on (202) 366-1992 or David A. Dobbs, Assistant Inspector General for Aviation
Audits, on (202) 366-0500.

Attachment

                                        #
                                            Executive Summary
                Operational Errors and Runway Incursions:
         Progress Made, but the Number of Incidents Is Still High and
                      Presents Serious Safety Risks
                                      Federal Aviation Administration

Report No. AV-2003-040                                                                                    April 3, 2003

BACKGROUND AND OBJECTIVE
      Operational errors and runway incursions pose very serious safety risks and are
      critical safety indicators for the Nation’s air traffic control system. An operational
      error1 occurs when an air traffic controller does not ensure that Federal Aviation
      Administration (FAA) separation standards are maintained between airplanes.
      Operational errors occur mostly in the air2 and can pose a very serious safety risk,
      as described in the following example. In April 2002, an operational error
      occurred at the Atlanta Terminal Radar Approach Control (TRACON) when a
      controller directed a commercial airliner and a business jet onto converging
      courses. As depicted in Figure 1, the aircraft were about 7 seconds from a midair
      collision when the pilots’ evasive actions averted an accident.


               Figure 1—Operational Error at the Atlanta TRACON

                                                             Collision in
                                                              less than
                                                              7 seconds



                                                      Airplanes came within
                                                      100 feet vertically and
                           Business jet level         4,250 feet horizontally       Airliner climbing
                             at 4,000 feet                                            to 4,000 feet
                                                           (0.7 miles)1
                               259 mph                                                  311 mph




  1
      Standard separation in the en route environment is 5 nautical miles horizontally and 1,000 feet vertically up to
      29,000 feet, and 2,000 feet vertically above 29,000 feet. Horizontal separation in the terminal environment is generally
      between 3 and 5 nautical miles depending on the type of airplane. All references to miles in this report are nautical
      miles. A nautical mile is equivalent to 6,076 feet.
  2
      Historically, about 90 percent of the reported operational errors occur in the air. Operational errors that occur on the
      runway and create a collision hazard are considered runway incursions.
    In July 2002, a midair collision between a Russian passenger airliner and a Boeing
    757 cargo plane occurred over southern Germany at an altitude of about
    35,000 feet. A total of 71 people were killed. This tragic accident shows just how
    serious midair collisions can be. The cause of this accident is currently under
    investigation by the German authorities.

    Runway incursions3 are incidents on the runway that also create a collision hazard.
    Several major accidents have occurred on the runway. For example, in October
    2001, a McDonnell Douglas MD-80 taking off in poor visibility from Linate
    Airport in Milan, Italy, struck a Cessna business jet that entered the runway by
    mistake. A total of 118 people were killed in that accident.

    Although this accident did not occur in the United States, it shows the extent of the
    safety risk posed by runway incursions. An incident similar to the one in Milan
    occurred at the Los Angeles Airport in California in March 2002. A Boeing 737
    aircraft entered an active runway without authorization as a Boeing 757 was taking
    off. The two aircraft were separated by only 200 feet vertically. Since 1990, there
    have been 9 runway accidents4 in the United States that claimed 49 lives and
    damaged 16 aircraft.

    The objective of this audit was to determine whether FAA is making progress in
    reducing operational errors and runway incursions. Additionally, we determined
    whether FAA implemented recommendations contained in our previous reports on
    operational errors and runway incursions.5 Our field work primarily focused on
    operational errors, because these incidents continued to rise in fiscal year (FY)
    2001. The audit was conducted between December 2001 and March 2003. We
    conducted the audit in accordance with Government Auditing Standards
    prescribed by the Comptroller General of the United States. (See Exhibit A for a
    list of organizations visited or contacted.)




3
    FAA defines a runway incursion as any occurrence at an airport involving an aircraft, vehicle, person, or object on the
    ground, that creates a collision hazard or results in a loss of separation with an aircraft taking off, intending to take off,
    landing, or intending to land. FAA’s definition applies only to airports with operating air traffic control towers.
4
    These numbers do not include the runway accident that occurred at Quincy, Illinois, in November 1996 that resulted in
    14 fatalities. This accident does not meet FAA’s definition of a runway incursion since it occurred at a non-towered
    airport.
5
    “Actions to Reduce Operational Errors and Deviations Have Not Been Effective” (Report Number AV-2001-011,
    December 15, 2000), and “Despite Significant Management Focus, Further Actions Are Needed to Reduce Runway
    Incursions” (Report Number AV-2001-066, June 26, 2001). See Exhibits E and F, respectively, for the status of
    recommendations from these reports.

    Executive Summary                                                                                                           ii
RESULTS IN BRIEF
  After several years of continuous increases in operational errors and runway
  incursions, FAA has made progress in reducing these incidents in FY 2002, as
  shown in Figure 2. From FY 1998          Figure 2—Operational Errors
  through FY 2001, operational
  errors increased 35 percent—from
                                                 and Runway Incursions
  885 to 1,194. During this same                    FY 1998 to FY 2002
  time period, runway incursions
  increased 34 percent from 304 to
                                                         Operational Errors
  407. This past year FAA has                                                                Rate*

  begun to reverse this trend. In        FY  1998                             885             5.6

  FY 2002,        operational     errors FY 1999                               941            5.7
  decreased 11 percent to 1,061 and
                                         F Y 2000                                    1,145    6.8
  runway       incursions     decreased
  17 percent to 339 from FY 2001         FY 2001                                      1,194   7.4

  levels. FAA’s success was due in       FY 2002                                    1,061    6.7
  part to the implementation of FAA
                                                  0  200   400  600   800 1,000 1,200 1,400
  and industry initiatives.           In
  addition, we found that there was a                    Runw ay Incursions
  statistical correlation between the                                                       Rate*
                                                                         304
  decrease in these incidents and the     FY 1998                                            4.7

  reduction in air traffic operations.    FY 1999                          329               4.8

                                                        FY 2000                                    405     5.9
  Despite FAA’s progress in
  reducing the number of operational       FY 2001                                             407         6.2

  errors and runway incursions in         FY 2002                                      339                 5.2
  FY 2002, the number of these                     0          100        200      300      400       500
  incidents is still too high
                                        * Rate is per million air traffic operations. The rate for operational errors
  considering       the      potential includes all air traffic facilities. For runway incursions, the rate includes
  catastrophic results of a midair only tower facilities.
  collision or a runway accident. Reducing runway incursions has remained on the
  National Transportation Safety Board’s (NTSB) annual “Most Wanted” list of
  transportation safety improvements since 1990.

  In FY 2002, on average, three operational errors and one runway incursion
  occurred each day. The most serious runway incursions (those rated in the
  two high risk categories) occurred, on average, once every 10 days. FAA records
  showed that the most serious operational errors (those rated as high risk) occurred,
  on average, once every 8 days. On average, in FY 2002, at least one commercial
  aircraft was involved in a serious runway incursion or operational error once every
  10 days.

  Executive Summary                                                                                               iii
In our opinion, FAA’s severity rating system understates the number of serious
operational errors. For example, our analysis of operational errors that occurred
from May 1, 2001, when FAA established its severity rating system, through
May 31, 2002, showed that the most serious operational errors occurred, on
average, once every 3 days, when we included operational errors rated “moderate”
that were within 30 seconds of a midair collision.

In the first 5 months of FY 2003, the number of operational errors rated high risk
increased from 21 to 24, and the number of runway incursions in the 2 high risk
categories decreased from 17 to 10 compared to the same period in FY 2002.
While the progress in reducing serious runway incursions is encouraging, it is
important that FAA take additional actions to further reduce the number and safety
risk of operational errors and runway incursions, especially since FAA projects
that air traffic operations will return to pre-September 11th growth patterns
between 2005 and 2007.

To reduce operational errors further, FAA needs to address the following issues
identified during our audit.

Ø FAA considers many operational errors as “moderate” severity when in fact
  some of these errors are very serious. For example, FAA rated an error as
  moderate that was less than 12 seconds from a midair collision. FAA needs to
  modify its rating system to more accurately identify the most serious
  operational errors, focus its resources on reducing them, and ensure that
  controllers receive the appropriate training for high risk errors.

Ø FAA procedures do not require training when controllers have
  multiple operational errors or for controllers who have operational errors that
  pose a moderate or high safety risk. The procedures state only that skill
  enhancement training “may” be provided and, therefore, are open to
  interpretation. NTSB has expressed concerns over these procedures. Under
  these procedures, for example, a controller had three operational errors within
  a 2-year period, but did not receive any training after the second and third
  errors because these two errors were categorized as low severity. In addition,
  our review of 85 moderate and high severity operational errors disclosed that
  the controllers involved did not receive any formal training for 18 (21 percent)
  of these errors. FAA needs to revise its procedures to ensure that controllers
  are trained to reduce the risk of future errors.

Ø The Controller-in-Charge (CIC) Program was expanded as a result of a
  1998 agreement between FAA and the National Air Traffic Controllers
  Association to reduce the number of air traffic control supervisors by about
  one-third. To offset the reduction of supervisors, FAA agreed to use CICs to
  provide oversight of air traffic operations during the absence of supervisors. In

Executive Summary                                                                iv
        January 2001, FAA began its reduction of supervisors and the expanded use of
        CICs. In the first year (calendar year 2001) of the expanded CIC Program, the
        number of operational errors that occurred while a CIC was supervising an area
        increased 46 percent compared to calendar year (CY) 2000. FAA does not
        know the reason for the increase because it had not performed evaluations of
        those facilities with increases in operational errors while CICs were on duty.
        To address concerns identified in our 1998 report6 on the CIC Program, FAA
        needs to establish procedures to monitor, at the national level, the impact that
        the expanded CIC Program has had on operational errors.

    Ø FAA needs to provide stronger national oversight of facilities that continue to
      have high numbers of operational errors. Despite an 11 percent decrease in
      total operational errors in FY 2002, we found that 13 of the top 27 facilities
      with the most operational errors made no progress in reducing their errors from
      FY 2001 levels.

    To reduce runway incursions further, FAA needs to implement technologies to
    prevent runway incursions and hold managers accountable for completing
    initiatives on schedule as recommended in our June 2001 report. Specifically:

    Ø FAA needs to implement technologies to prevent runway incursions. FAA
      conducted technology reviews of airports that had runway incursion problems,
      completed its initial review of six low-cost emerging technologies, and
      initiated actions to expedite surface moving map displays for use by pilots.
      However, FAA must now ensure these technologies are advanced to high risk
      airports in a timely manner.

    Ø FAA’s Runway Safety Program Director still has no authority to ensure
      initiatives undertaken by various FAA lines of business are completed on
      schedule. As we have been reporting since 1998, many initiatives to reduce
      runway incursions have not been completed on schedule. For instance, in
      August 2000, FAA identified 10 near-term initiatives. However, 7 of these
      10 initiatives were completed 6 to 21 months behind schedule. FAA needs to
      establish a mechanism to hold managers accountable for implementing
      initiatives to reduce runway incursions on schedule.


    Additional Actions Are Needed to Reduce the Safety Risk Posed
    by Operational Errors
    In December 2000, we reported that FAA needed to approach reducing operational
    errors with a sense of urgency and provide stronger national oversight to ensure

6
    “Staffing: Reductions in Supervisors Will Require Enhancements to FAA’s Controller-in-Charge Program” (Report
    Number AV-1999-020, November 16, 1998).

    Executive Summary                                                                                          v
    efforts to reduce these errors are effective. FAA initiated actions to improve its
    oversight efforts and, together with the National Air Traffic Controllers
    Association (NATCA), established a system to identify the severity, or collision
    hazard, of operational errors and to focus resources on preventing the most severe
    errors.

    The rating system uses a 100-point scale to rate the severity of errors into
    three risk categories—low (39 and below), moderate (40 to 89), and high (90 and
    above). Points are assigned based on vertical and horizontal separation distances,
    flight paths, closure rate, and level of air traffic control involvement (controlled—
    controller was aware an error was about to occur, or uncontrolled—controller was
    not aware an error was about to occur). Those operational errors rated as low are
    not considered a safety risk and are categorized as technical violations.

    The reduction in air traffic operations and FAA initiatives contributed to FAA’s
    progress in reducing operational errors. Most of the decrease in FY 2002 occurred
    at three facilities. Specifically:

    Q We analyzed the 11 percent decrease in operational errors from FY 2001 to
        FY 2002 (1,194 to 1,061) and found that the decrease was due in part to the
        3 percent reduction in air traffic operations (about 4.2 million operations)
        during FY 2002. We performed a statistical correlation analysis7 between air
        traffic operations and operational errors on a monthly basis for FY 2001 and
        FY 2002 and concluded there was a positive correlation. In other words, as
        operations decreased, errors also decreased. We also performed the same
        statistical correlation analysis for 24 facilities8 that had decreases in operations
        in FY 2002 and concluded that there was also a positive correlation on a
        facility basis.

    Q Sixty-five percent of the total decrease in operational errors nationwide (86 out
        of a total decrease of 133 errors from FY 2001 to FY 2002) occurred at
        Washington Center, Los Angeles Center, and New York TRACON. (See
        Exhibit C for details regarding the decreases at these facilities.) FAA air traffic
        officials attributed the decrease at these three facilities to an increase in
        Headquarters and regional oversight. For example, all three facilities had
        national reviews during FY 2001. Also, the New York TRACON hired a new
        Quality Assurance manager in April 2001 to focus on identifying causal factors
        and trends of operational errors, and developing strategies for reducing these

7
    A statistical correlation analysis measures the extent to which a relationship exists between two or more variables. We
    used SPSS statistical software and plotted the number of air traffic operations to the number of operational errors to
    evaluate the correlation, or relationship, that these two variables had with one another.
8
    These 24 facilities were among the top 27 facilities with the most operational errors. The other three facilities had
    increases in air traffic operations.

    Executive Summary                                                                                                    vi
        errors. It is important to note that these three facilities also experienced a 5 to
        7 percent decrease in air traffic operations.

    There is no question that FAA has made improvements since we issued our report
    in December 2000; however, we found that much work remains in reducing
    operational errors.

    Q For FY 2002, FAA changed its goal from reducing the total number of
        operational errors to reducing the most serious incidents. However, FAA
        missed its FY 2002 goal of having no more than 568 operational errors with
        less than 80 percent of required separation between aircraft,9 with 617 such
        errors.

    Q Seventy-eight percent of the 1,103 operational errors that FAA rated during the
        13-month period from May 1, 2001, to May 31, 2002, posed a moderate or
        high safety risk.

    Q FAA’s rating system understates the safety risk of the most serious operational
        errors. Only 61 of 1,103 operational errors were rated “high risk” (90 and
        above out of 100 points). However, we found another 65 errors rated in the
        high end of “moderate” (70 to 89 points) that, in our opinion, were also very
        serious (within 30 seconds of a midair collision). On average, operational
        errors that scored between 70 and 89 points had only 50 percent of the required
        separation between aircraft. Depending on the closure rate of the aircraft
        involved, these errors can be only seconds away from an accident. For
        example, a controller directed two commercial airliners head-on at a closure
        rate of 460 miles per hour. The two aircraft had only 43 percent of the
        required 3-mile horizontal separation and were less than 12 seconds from a
        midair collision. The incident was rated as “moderate,” scoring 87 points. In
        our opinion, this operational error was very serious, and FAA should consider
        errors such as this one to be “high risk.”

    Q FAA does not identify and monitor statistics on the number of operational
        errors that involve commercial aircraft, general aviation aircraft, and military
        aircraft. This is important in measuring the overall safety impact of
        operational errors. For example, operational errors that involve commercial
        aircraft should be identified and monitored because they can place hundreds of
        passengers at risk.

9
    For example, if the required separation between two aircraft was 5 miles horizontally, any operational error that had
    less than 4 miles (80 percent of 5 miles) between aircraft was considered serious for the purpose of measuring whether
    FAA met its goal. FAA used the 80 percent separation as a bench mark to identify serious errors because it did not
    establish a formal severity rating system until April 27, 2001. Therefore, FAA did not have a full year of severity data
    on which to base its goal.

    Executive Summary                                                                                                     vii
Q FAA procedures do not require training when controllers have multiple
   operational errors or for controllers who have operational errors that posed a
   moderate or high safety risk. This occurred because, in 2001, FAA and
   NATCA signed a Memorandum of Understanding establishing new procedures
   for the types of actions that can be taken when operational errors occur, in part,
   to change the controllers’ belief that actions taken as a result of an operational
   error were punitive. In the past, supervisors could decertify a controller and
   provide remedial training even if the error was the controller’s first operational
   error and did not pose a safety risk. We agree with FAA’s decision to
   eliminate the perception that actions taken after an operational error are
   punitive. However, we do not consider training to be punitive. As a result of
   FAA’s new procedures, some controllers with multiple errors or errors that
   posed a moderate or high safety risk did not receive training. Specifically:

    • FAA procedures set no limit on the number of low severity errors a
       controller could have before training is required; therefore, a controller
       can have multiple errors and not receive training. The procedures state
       that training will not be provided to controllers who have low severity
       errors that are controlled (i.e., the controller was aware the error was about
       to occur). For low severity errors that are uncontrolled, training “may” be
       provided but is not mandatory.              For example, a controller had
       three operational errors within a 2-year period, but did not receive any
       training after the second and third errors because these two errors were
       categorized as low severity. Less than 1 year later, the controller had a
       fourth operational error that was rated in the high end of moderate. While
       the controller did receive training after the fourth error, training provided
       after the second or third error possibly could have prevented the fourth
       error.

    • For controllers who have moderate or high risk errors, FAA procedures
       state only that training “may” be provided. Our review of 85 moderate
       and high severity operational errors disclosed that the controllers involved
       did not receive any formal training for 18 (21 percent) of these errors.

Q To address concerns identified in our 1998 report on the CIC Program, FAA
   needs to take additional action to ensure that the Program does not adversely
   impact safety.     The CIC Program was expanded as a result of a
   1998 agreement between FAA and NATCA to reduce the number of air traffic
   control supervisors by about one-third. To offset the reduction of supervisors,
   FAA agreed to use CICs to provide oversight of air traffic operations during
   the absence of supervisors.



Executive Summary                                                                  viii
           • In October 2000, we issued a letter to the FAA Administrator urging her to
                rescind the practice of allowing facilities to designate all controllers as
                CICs after we were informed that one facility had designated 100 percent
                of its controllers as CICs. Our review of more recent FAA data10 found
                that at least 118 facilities either set a goal of designating or had designated
                100 percent of their controllers as CICs. This may be necessary at smaller
                facilities; however, designating 100 percent of controllers as CICs at
                larger facilities is not reasonable. While FAA maintains that all CICs are
                qualified, Congress has been concerned, as we were, that allowing
                facilities to designate all controllers as CICs did not ensure that only the
                most qualified controllers are selected. Because of this concern and due to
                the increasing number of operational errors and runway incursions,
                Congress, in the FY 2002 Appropriations Bill, halted the further reduction
                of the number of supervisors and expansion of the CIC Program.

           • FAA needs to establish procedures to monitor, at the national level, the
                impact on operational errors of the expanded CIC Program and reduction
                in the number of supervisors.         Our analysis indicates that the
                CIC Program, since it was expanded in January 2001, may be negatively
                impacting operational errors. In CY 2001, the number of errors that
                occurred while a CIC was supervising an area increased 46 percent over
                CY 2000, even though the number of CIC hours worked increased only
                14 percent. FAA did not know the reason for the increase because it had
                not performed evaluations of those facilities with increases in operational
                errors while CICs were on duty.

               According to FAA air traffic officials, there could be other factors
               contributing to the increase in operational errors while CICs are on duty.
               For example, CICs may be working during the busier periods when an
               error is more likely to occur. However, in our opinion, the statistics are an
               indicator that the CIC Program may be adversely impacting operational
               errors, and these statistics warrant a more detailed review. Until FAA
               conducts detailed evaluations of those facilities that have significant
               increases in operational errors while CICs are on duty, the reasons for the
               increases will not be known.

     Q FAA did not substantially improve its national oversight of regions and
         facilities with high numbers of operational errors as recommended in our
         December 2000 report. For example, three of the four regions we visited
         provided little documentation to show that they had visited problem facilities,

10
     FAA facility evaluation data for 156 facilities that had facility evaluations performed between July 24, 2001, and
     May 23, 2002.

     Executive Summary                                                                                               ix
   identified problems linked to operational errors, and followed up to ensure
   identified problems were corrected. Also, FAA did not complete its review
   and approval of regional quality assurance plans that were revised based on
   guidance issued in August 2001.

   In addition, in July 2001, FAA established a position for a National Program
   Manager for Quality Assurance to oversee and improve regional and facility
   efforts to reduce operational errors, including the review and approval of
   regional quality assurance plans. However, the person assigned to this position
   was detailed to act as an assistant facility manager at a major air traffic control
   tower for 7 months from April to November 2002. FAA should ensure that the
   National Program Manager for Quality Assurance position remains
   permanently staffed. In addition, once FAA completes its review of regional
   quality assurance plans, FAA needs to periodically assess the regions’ efforts
   to correct facility-specific problems.

To its credit, FAA, in conjunction with NATCA, issued a 3-year plan in August
2002 to prevent operational errors. This plan is a step in the right direction and
includes some key actions to reduce operational errors. For example, the plan
contains actions to improve controller training and establishes a National Safety
Board that will be responsible for identifying and reviewing at-risk facilities.
Also, in FY 2002, FAA initiated two key human factors studies to improve
controller performance and better identify the causal factors of errors. The key to
the success of these initiatives is that FAA follows through and completes the
initiatives in a timely manner.

To better focus its resources on those operational errors that truly represent the
greatest safety risk, FAA needs to reexamine its decision to assign only an
11-point range (90 to 100) for high severity errors and expand the range below the
90-point lower limit so that all errors that pose a very serious safety risk are
treated as high severity errors. Also, to further reduce operational errors, FAA
must ensure that controllers with multiple operational errors or errors that pose a
moderate or high safety risk receive training. In addition, FAA needs to establish
quality assurance procedures at the national level to monitor the safety impact of
the expanded CIC Program on a facility-by-facility basis and perform detailed
evaluations of those facilities that have significant increases in operational errors
while CICs are on duty. If actions taken do not reverse the upward trend in
operational errors while CICs are on duty, then FAA should limit the use of CICs
to only the most qualified candidates.




Executive Summary                                                                   x
Actions Are Needed to Reduce Runway Incursions Further
FAA continued to focus on reducing runway incursions and has made progress
this past year. In June 2001, FAA established a system to categorize runway
incursions into four levels of accident risk to target reduction efforts on the most
serious incursions. The four risk levels described in part are:

   -   A:   barely avoid a collision,
   -   B:   significant potential for a collision,
   -   C:   ample time and distance exists to avoid a potential collision, and
   -   D:   little or no risk of a collision exists.

In addition, FAA’s full-time regional runway safety managers, appointed in
October 2000, conducted a total of 183 safety evaluations of runways at specific
airports in FYs 2001 and 2002. The safety evaluations are used to identify
runway-specific problems that may lead to runway incursions and to identify
actions to correct these problems.

For FY 2002, FAA changed its goal from reducing the total number of runway
incursions to reducing the most serious incidents. Its goal was to have no more
than 53 runway incursions in the two highest risk categories, those incursions that
barely avoided or had significant potential for a collision. As shown in Figure 3,
FAA has made progress in reducing runway incursions in the two highest risk
categories (Categories A and B) overall and in reducing the number of Category A
and B incursions that involve commercial aircraft. In FY 2002, FAA met its goal
with 37 Category A and B incursions—a decrease of 30 percent from FY 2001.
However, in FY 2002, the high risk runway incursions still occurred about once
every 10 days.

                Figure 3—Category A and B Incursions
                          FYs 1998-2002

                FY 1998            36               59
                                                                    Total A's and B's
                FY 1999            42                     69

                FY 2000            40                    67         At Least One Commercial
                                                                    Aircraft Involved
                FY 2001            31          53
                FY 2002       13          37

                          0         20   40     60             80




Executive Summary                                                                             xi
     FAA’s improved national oversight and focus on more serious runway incursions
     contributed to FAA’s progress in reducing runway incursions in FY 2002.
     However, we also found that a reduction in air traffic operations as well as site-
     specific improvements at airports contributed to FAA’s progress. Specifically:


     Q We found the decrease in runway incursions from FY 2001 to FY 2002 was
          due in part to the 2 percent reduction in air traffic tower operations (about
          1.3 million operations) during FY 2002. We performed a statistical correlation
          analysis on a monthly basis for FY 2001 and FY 2002, comparing total tower
          operations to runway incursions, and concluded there was a positive
          correlation. In other words, as tower operations decreased nationwide, runway
          incursions decreased. Conversely, the more tower operations there are
          nationwide, the more opportunities exist for a runway incursion or runway
          accident.

     Q As stated in FAA’s June 2002 Runway Safety Report,11 traffic volume is not
          the only factor contributing to the potential for runway incursions. Airport-
          specific factors also influence the possibility for a runway incursion. For
          instance, 31 percent of the total decrease in runway incursions nationwide
          (21 out of a total decrease of 68 incursions from FY 2001 to FY 2002)
          occurred at 3 airports: John Wayne Airport, Orange County, California; Fort
          Lauderdale Executive Airport, Florida; and Buchanan Field, Concord,
          California. Runway safety officials attribute the decrease in runway incursions
          at these airports to national, regional, and site-specific initiatives to reduce
          runway incursions. For example, FAA conducted runway safety reviews at
          these three airports during FY 2001 or FY 2002. As a result, improvements,
          such as better runway/taxiway markings, signs, and lighting systems, were
          made at these airports to prevent runway incursions. In addition, pilot
          education programs were implemented.

     In response to recommendations made in our June 2001 report, FAA initiated
     several actions to identify technologies to reduce runway incursions. FAA
     completed its initial review of six low-cost emerging technologies in July 2002
     and recommended that three of the technologies be further evaluated. These
     three technologies (ground markers, runway status lights, and smart boards)12
     should improve pilot situational awareness and help prevent pilot deviations, the
     leading cause of runway incursions. FAA’s next step is to ensure that these
11
     “FAA Runway Safety Report - Runway Incursion Trends at Towered Airports in the United States,” CY 1998 –
     CY 2001, dated June 2002.
12
     Ground markers transmit audible messages to the pilot regarding the runway status, i.e., alert the pilot if the runway is
     occupied. Runway status lights provide the pilot a visual signal, similar to a traffic light, regarding the runway status.
     Smart boards are electronic bulletin boards that are placed at taxiway/runway intersections to provide pilots with
     advisory messages.

     Executive Summary                                                                                                       xii
     technologies are advanced to high risk airports, as recommended. FAA also
     conducted reviews at the 13 problem airports identified in our June 2001 report
     plus 3 additional airports and published its findings and recommendations on
     January 29, 2003, in its Runway Incursion Airport Assessment Report. Now,
     FAA must ensure recommended actions are implemented in a timely manner.

     FAA and the aviation industry have not made a decision to expedite technologies,
     such as the in-cockpit surface moving map displays, that may have significant
     potential for reducing runway incursions caused by pilots. According to FAA
     officials, efforts to expedite these technologies have been slowed due to the
     economic slowdown of the airline industry, which became more pronounced after
     September 11th. FAA officials stated that because major investments in security
     are being made while revenue is down, most airlines have no budget for new
     avionics. In an effort to expedite moving map technology, FAA is working with
     the aviation industry in developing a portable surface moving map display that can
     be used with an Electronic Flight Bag.13 In addition, FAA is moving forward with
     developing 76 airport surface moving maps by the end of 2004 so the maps will be
     available once the airlines are able to install the technology needed in the cockpit.

     In our June 2001 report, we also reported that improvements in program oversight
     were needed because initiatives to reduce runway incursions were not completed
     on time. FAA runway safety officials believe FAA’s ability to meet future
     milestones in implementing runway safety initiatives will be improved with the
     implementation of its FY 2002-2004 Runway Safety Blueprint, issued in July
     2002. In developing the Blueprint, FAA coordinated with and obtained approval
     of all its lines of business. The Blueprint identifies FAA’s goals and initiatives to
     reduce runway incursions, assigns a lead organization responsibility for each
     initiative, and requires lead organizations to prepare an implementation plan for
     each initiative.

     However, we are not convinced that actions taken to date will improve program
     accountability at the national level. Contrary to our recommendation, FAA’s
     Runway Safety Program Director still has no authority to ensure initiatives
     undertaken by various FAA lines of business are completed on schedule. As
     previously reported, many initiatives to reduce runway incursions over the years
     were not completed on schedule. For instance, in August 2000, FAA identified
     10 near-term initiatives that were to be completed by early 2001. Seven of these
     10 initiatives were completed 6 to 21 months behind schedule.

     In our opinion, the process established by FAA to have the Office of Runway
     Safety monitor the progress of other lines of business in meeting their milestones

13
     Electronic Flight Bags can display a variety of aviation data, including runway maps, which in the past were obtained
     from paper documents or an airline’s flight dispatch function.

     Executive Summary                                                                                                  xiii
  will not work if the Runway Safety Office has no authority over the lines of
  business. As recommended in our June 2001 report, FAA needs to establish a
  mechanism at a level where appropriate actions and priorities can be directed
  above the lines of business. Without such a mechanism, there is no assurance that
  actions in this Blueprint will be completed any more timely than actions contained
  in FAA’s four prior action plans issued over the last 10 years.


RECOMMENDATIONS
  To reverse the upward trend in operational errors, we recommend that FAA:

  Ø Reexamine its decision to assign only an 11-point range (90 to 100) for high
     severity errors and expand the range below the 90-point lower limit so that
     resources are focused on all errors that pose a very serious safety risk.

  Ø Identify and monitor statistics on the number of operational errors by
     commercial, general aviation, and military aircraft.

  Ø Require that controllers who are involved in multiple operational errors receive
     training regardless of the severity rating of the errors, and mandate that training
     be provided for controllers who have had moderate and high rated operational
     errors.

  Ø Establish procedures to monitor, at the national level, the impact that the
     expanded CIC Program and reduction in the number of supervisors has had on
     operational errors on a facility-by-facility basis. For those facilities where
     operational errors have increased significantly when CICs were on duty, FAA
     should perform detailed evaluations to identify the reasons for the increases. If
     the facility is unable to reverse the upward trend in operational errors while
     CICs are on duty, FAA should limit the use of CICs to only the most qualified
     candidates.

  Ø Improve national and regional oversight by (1) ensuring a permanent National
     Program Manager for Quality Assurance is assigned to provide oversight of
     regional efforts to reduce operational errors; (2) completing the review and
     approval of regional operational error reduction programs; and (3) conducting
     reviews of regional quality assurance offices to ensure regions are complying
     with their plans and are held accountable for addressing facilities in their
     region that do not show progress in reducing operational errors.

  FAA must move expeditiously to complete recommendations made in our June
  2001 report to reduce runway incursions further. Specifically, FAA needs to
  (1) advance low-cost technologies to high risk airports; (2) expedite technologies,

  Executive Summary                                                                   xiv
  such as in-cockpit surface moving map displays, to aid pilots in reducing runway
  incursions; and (3) improve program accountability. See Exhibit F for details. In
  addition to completing recommendations in our June 2001 report, FAA also needs
  to implement recommendations in its Runway Incursion Airport Assessment
  Report, published January 29, 2003. These recommendations were made as a
  result of technological reviews of problem airports.


MANAGEMENT COMMENTS AND OFFICE OF INSPECTOR
GENERAL RESPONSE
  On March 21, 2003, FAA provided written comments (attached as an Appendix to
  this report) to our February 26, 2003 draft report. FAA agreed with our
  recommendation to improve its national oversight of the regions and facilities that
  do not show progress at reducing operational errors, and indicated that these
  actions will be completed by May 1, 2003. We consider FAA’s proposed actions
  to be responsive and consider that recommendation resolved. FAA also agreed
  with our recommendation to implement its human factors initiative for memory
  enhancement training for controllers, but FAA needs to provide a target date for
  implementation. We consider FAA’s proposed actions to be responsive and
  consider that recommendation resolved.

  On March 28, 2003, FAA provided revised comments to address our two
  recommendations on revising training requirements for operational errors. FAA
  officials stated that they are currently involved in a review of existing
  MOUs, which includes re-examining the provisions of the MOU on training
  requirements for operational errors. We consider FAA’s proposed actions to be
  responsive, but FAA needs to provide a target date for implementing these
  recommendations. These recommendations will remain open, and we will monitor
  FAA’s progress in re-examining the MOU and revising training requirements.

  However, FAA’s proposed actions regarding our recommendations on expanding
  its severity rating system for serious operational errors, and monitoring the impact
  of the expanded CIC Program on operational errors, do not fully address the intent
  of our recommendations and are not responsive. We are requesting that FAA
  reconsider its position.

  Ø Regarding our recommendation to expand the severity rating of operational
    errors, FAA stated that it would validate the point values for high severity
    operational errors; however, FAA did not indicate whether it planned to take
    action to expand the point range for high severity errors. This is important
    because we found operational errors rated as moderate that posed a serious
    safety risk. For example, we identified 65 operational errors rated as moderate
    where the aircraft involved were within 300 feet vertically, had converging
  Executive Summary                                                                 xv
   paths, and were within 30 seconds of a midair collision. One of these
   operational errors involved two commercial airliners, approaching head-on at a
   closure rate of 460 miles per hour; they were less than 12 seconds from a
   midair collision when they took evasive action. FAA needs to accurately
   identify all serious operational errors to ensure that it focuses resources on
   reducing the most dangerous operational errors.

Ø FAA’s response to our recommendation regarding the expanded CIC Program
  does not indicate what actions FAA plans to take to monitor, at the national
  level, the impact on operational errors of the CIC Program and the reduction of
  the number of supervisors. FAA stated it agreed with our recommendation and
  will include CIC information in the agency’s operational error causative
  analysis efforts. However, it is not clear if FAA’s causative analysis efforts
  will include monitoring the impact of the expanded CIC Program on
  operational errors. FAA needs to clarify its response and provide us with more
  details on how it plans to monitor the CIC Program on a facility-by-facility
  basis. Also, FAA needs to provide us details regarding its plans to conduct
  evaluations of those facilities that have significant increases in operational
  errors while CICs are on duty.

For runway incursions, FAA agreed to implement recommendations in its Runway
Incursion Airport Assessment Report made as a result of technological reviews of
16 problem airports. FAA indicated that it is working at the field level to
coordinate improvements to signs, surface markings, and security. Of the
16 airports, FAA has identified 6 airports for improved airport marking and signs,
and it indicated that work at 4 of these airports has been completed. FAA is also
working at other airports to test improvements to surface operations. FAA plans
to complete this work in 2004 and begin to work at higher capacity commercial
and general aviation airports in 2005. When fully implemented, these actions
should help further reduce runway incursions. Accordingly, we consider FAA’s
proposed actions to be responsive, and we consider these recommendations
resolved.




Executive Summary                                                               xvi
                           TABLE OF CONTENTS

TRANSMITTAL MEMORANDUM
EXECUTIVE SUMMARY ................................................................................. i
INTRODUCTION............................................................................................. 1
    Background................................................................................................ 1
    Objective, Scope, and Methodology .......................................................... 2
FINDINGS AND RECOMMENDATIONS ........................................................ 3
    Finding A. Additional Actions Are Needed to Reduce the
    Safety Risk Posed by Operational Errors................................................... 3
    Finding B. Actions Are Needed to Reduce Runway
    Incursions Further.................................................................................... 21
EXHIBIT A. ORGANIZATIONS VISITED OR CONTACTED....................... 28
EXHIBIT B. STATISTICAL CORRELATION ANALYSIS OF
OPERATIONAL ERRORS BY FACILITY..................................................... 29
EXHIBIT C. TOP 25 RANKINGS OF FACILITIES WITH
OPERATIONAL ERRORS FOR FY 2002..................................................... 30
EXHIBIT D. AIRPORTS WITH 10 OR MORE RUNWAY
INCURSIONS FROM 1999 TO 2002 ............................................................ 31
EXHIBIT E. STATUS OF DECEMBER 2000
RECOMMENDATIONS REGARDING OPERATIONAL
ERRORS ...................................................................................................... 33
EXHIBIT F. STATUS OF JUNE 2001 RECOMMENDATIONS
REGARDING RUNWAY INCURSIONS........................................................ 34
EXHIBIT G. MAJOR CONTRIBUTORS TO THIS REPORT........................ 36
APPENDIX. MANAGEMENT COMMENTS .................................................. 37
    INTRODUCTION

                                                 Background
    Operational errors and runway incursions pose very serious safety risks and are
    critical safety indicators for the Nation’s air traffic control system.

    An operational error1 occurs when an air traffic controller does not ensure that
    Federal Aviation Administration (FAA) separation standards are maintained
    between airplanes. FAA criteria for reporting, investigating and preventing
    operational errors are contained in FAA’s Air Traffic Quality Assurance Order,
    7210.56C, dated August 15, 2002.

    Operational errors occur mostly in the air2 and can pose a very serious safety risk.
    For example, in April 2002, an operational error occurred at the Atlanta Terminal
    Radar Approach Control (TRACON) when a controller directed a commercial
    airliner and a business jet onto converging courses. As depicted in Figure 1, the
    aircraft were about 7 seconds from a midair collision when the pilots took evasive
    action, averting an accident.


             Figure 1—Operational Error at the Atlanta TRACON
                                                           Collision in
                                                            less than
                                                            7 seconds


                                                       Airplanes came within
                                                       100 feet vertically and
                                                       4,250 feet horizontally
                                                            (0.7 miles)1
                               Business jet                                               Airliner
                                 level at                                               climbing to
                                4,000 feet                                               4,000 feet
                                259 mph                                                  311 mph




1
    Standard separation in the en route environment is 5 nautical miles horizontally and 1,000 feet vertically up to
    29,000 feet, and 2,000 feet vertically above 29,000 feet. Horizontal separation in the terminal environment is generally
    between 3 and 5 nautical miles depending on the type of airplane. All references to miles in this report are nautical
    miles. A nautical mile is equivalent to 6,076 feet.
2
    Historically, about 90 percent of the reported operational errors occur in the air. Operational errors that occur on the
    runway and create a collision hazard are considered runway incursions.



    Introduction                                                                                                         1
    In July 2002, a midair collision between a Russian passenger airliner and a
    Boeing 757 cargo plane occurred over southern Germany at an altitude of about
    35,000 feet. A total of 71 people were killed. This tragic accident shows just how
    serious midair collisions can be. The cause of this accident is currently under
    investigation by the German Federal Bureau of Aircraft Accident Investigations.

    Runway incursions3 are incidents on the runway that also create a collision hazard.
    FAA’s Office of Runway Safety has overall responsibility for FAA’s Runway
    Safety Program to prevent and reduce runway incursions. Responsibilities for this
    office and other FAA organizations with a role in runway safety are contained in
    FAA’s Runway Safety Program Order, 7050.1, dated November 1, 2002.

    Several major accidents have occurred on the runway. In October 2000, an
    accident occurred at Taipei’s Chang Kai Shek International Airport when a Boeing
    747 took off on a closed runway and collided with construction equipment killing
    83 people onboard. More recently, in October 2001, a McDonnell Douglas
    MD-80 taking off in poor visibility from Linate Airport in Milan, Italy, struck a
    Cessna business jet that entered the runway by mistake. A total of 118 people
    were killed in that accident.

    Although these accidents did not occur in the United States, they show the extent
    of the safety risk posed by runway incursions. A similar incident to the one in
    Milan occurred at the Los Angeles Airport in California in March 2002. A
    Boeing 737 aircraft entered an active runway without authorization as a
    Boeing 757 was taking off. The two aircraft were separated by only 200 feet
    vertically. Since 1990, there have been 9 runway accidents4 in the United States
    that claimed 49 lives and damaged 16 aircraft. The National Transportation Safety
    Board (NTSB) has included reducing runway incursions on its annual “Most
    Wanted” list of transportation safety improvements since 1990.


                      Objective, Scope, and Methodology
    The objective of this audit was to determine whether FAA is making progress in
    reducing operational errors and runway incursions. Additionally, we determined
    whether FAA implemented recommendations contained in our previous reports on


3
    FAA defines a runway incursion as any occurrence at an airport involving an aircraft, vehicle, person, or object on the
    ground, that creates a collision hazard or results in a loss of separation with an aircraft taking off, intending to take off,
    landing, or intending to land. FAA’s definition applies only to airports with operating air traffic control towers.
4
    These numbers do not include the runway accident that occurred at Quincy, Illinois, in November 1996 that resulted in
    14 fatalities. This accident does not meet FAA’s definition of a runway incursion since it occurred at a non-towered
    airport.



    Introduction                                                                                                               2
    operational errors and runway incursions.5 Our field work primarily focused on
    operational errors because these incidents continued to rise in fiscal year (FY)
    2001. We analyzed operational error and runway incursion data from FY 1998
    through February 28, 2003, to evaluate FAA’s progress at reducing these
    incidents. We also evaluated FAA’s process for assigning severity ratings to
    operational errors. To determine the status of FAA actions to implement our prior
    recommendations and to evaluate current initiatives to reduce operational errors,
    we interviewed air traffic managers and controllers at FAA Headquarters in
    Washington, D.C.; four FAA regional offices; and nine air traffic control facilities.
    To determine the status of FAA actions to implement our prior recommendations
    on runway incursions, we interviewed representatives from FAA Headquarters and
    three regional offices. (See Exhibit A for a list of organizations visited or
    contacted.) We conducted the audit between December 2001 and March 2003 in
    accordance with Government Auditing Standards prescribed by the Comptroller
    General of the United States.



    FINDINGS AND RECOMMENDATIONS

          Finding A. Additional Actions Are Needed to
               Reduce the Safety Risk Posed by
                      Operational Errors
    In December 2000, we reported that FAA needed to approach reducing operational
    errors with a sense of urgency and provide stronger national oversight to ensure
    efforts to reduce these errors are effective. In response to recommendations in that
    report, in FY 2001 FAA conducted national reviews of 23 problem facilities,
    established a full-time position to oversee regional efforts to reduce operational
    errors, and issued guidance to improve regional operational error reduction plans.
    Also, on April 27, 2001, FAA established a system to rate the severity of
    operational errors.

    However, operational errors reached a 10-year record high of 1,194 incidents in
    FY 2001, even though the number of air traffic operations decreased 3.1 percent
    from the previous year. In FY 2002, there were 1,061 operational errors, a
    decrease of 133 errors, or 11 percent, from FY 2001. However, the number of

5
    “Actions to Reduce Operational Errors and Deviations Have Not Been Effective” (Report Number AV-2001-011,
    December 15, 2000), and “Despite Significant Management Focus, Further Actions Are Needed to Reduce Runway
    Incursions” (Report Number AV-2001-066, June 26, 2001). See Exhibits E and F, respectively, for the status of
    recommendations from these reports.



    Findings and Recommendations                                                                               3
    operational errors is still 20 percent higher than the number of operational errors
    that occurred in FY 1998, when air traffic operations were about the same as
    FY 2002 levels.6

    For FY 2002, FAA’s goal was to have no more than 568 operational errors that
    had less than 80 percent of the required separation between aircraft. FAA used the
    80 percent separation to identify serious errors because it did not have a full year
    of severity data on which to base its goal. However, FAA missed its FY 2002 goal
    of 568 by about 9 percent, with 617 operational errors that had less than 80 percent
    separation.

    In FY 2002, FAA records showed that the most serious operational errors (those
    rated as high risk) occurred, on average, once every 8 days. In our opinion, FAA
    understates the number of the most serious operational errors by only considering
    the high risk errors. For example, our analysis of operational errors that occurred
    from May 1, 2001, when FAA established its severity rating system, through
    May 31, 2002, showed that the most serious operational errors occurred, on
    average, once every 3 days, when we included operational errors rated “moderate”
    that were within 30 seconds of a midair collision.

    In the first 5 months of FY 2003, operational errors have decreased 4 percent,
    from 414 to 398 compared to the same period in FY 2002. However, during this
    same 5-month period, operational errors rated as high risk have increased from 21
    to 24 compared to the same period in FY 2002. Therefore, it is important that
    FAA take additional actions to further reduce the number and safety risk of
    operational errors, especially since FAA projects that air traffic operations will
    return to pre-September 11th growth patterns between 2005 and 2007.

    We analyzed the decrease in operational errors from FY 2001 to FY 2002 (1,194
    to 1,061) to determine the impact the reduction in air traffic operations may have
    had on the decrease in errors. While operational errors decreased 11 percent
    (133 errors) from FY 2001 to FY 2002, air traffic operations decreased almost
    3 percent, or about 4.2 million operations.7 We performed a statistical correlation
    analysis8 between air traffic operations and operational errors on a monthly basis
    for FY 2001 and FY 2002 and concluded there was a positive correlation. In other
    words, as operations decreased, errors also decreased. We also performed the


6
    Air traffic operations data from FAA’s Air Traffic Operations Network (OPSNET) database show that FY 2002
    operations were about .2 percent less than FY 1998 operations.
7
    The total number of air traffic operations for FY 2002 was obtained from FAA’s OPSNET database and includes the
    operations from all air traffic facilities: towers, TRACONs, and en route centers.
8
    A statistical correlation analysis measures the extent to which a relationship exists between two or more variables. We
    used SPSS statistical software and plotted the number of air traffic operations to the number of operational errors to
    evaluate the correlation, or relationship, that these two variables had with one another.



    Findings and Recommendations                                                                                         4
    same statistical correlation analysis for 24 facilities9 that had decreases in
    operations in FY 2002 and concluded that there was also a positive correlation on
    a facility basis. (See Exhibit B for additional data regarding this analysis.)

    However, traffic volume is not the only reason operational errors decreased.
    Specifically, 65 percent of the total decrease in operational errors nationwide
    (86 out of a total decrease of 133 errors from FY 2001 to FY 2002) occurred at
    Washington Center, Los Angeles Center, and New York TRACON. FAA air
    traffic officials also attributed the decrease at these three facilities to an increase in
    Headquarters and regional oversight. For example, all three facilities had national
    reviews during FY 2001. Also, the Los Angeles Center implemented several
    initiatives to reduce operational errors, including improvements in supervisory
    oversight and establishment of incentive awards for reducing operational errors.
    The New York TRACON hired a new Quality Assurance manager in April 2001
    to focus on identifying causal factors and trends of operational errors, and
    developing strategies for reducing these errors.


    Operational Errors Pose a Serious Safety Risk
    On April 27, 2001, FAA and the National Air Traffic Controllers Association
    (NATCA) implemented a system to identify the severity, or collision hazard, of
    operational errors and to focus resources on preventing the most severe errors.
    The system uses a 100-point scale to rate the severity of errors into 3 severity
    levels, as shown in Figure 2.


      Figure 2—FAA’s Operational Error Severity Rating System

                                    Severity Level               Point Range
                                       High                      90 and above
                                       Moderate                  40 to 89
                                       Low                       39 and below

    Points are assigned based on vertical and horizontal separation distances between
    aircraft (i.e., how close the aircraft came to one another), flight paths (i.e.,
    converging versus same direction), closure rate (the combined speeds of
    converging aircraft), and level of air traffic control (for example, 20 points are
    assigned to operational errors that are considered uncontrolled, that is, the
    controller was unaware a loss of separation was about to occur).


9
    These 24 facilities were among the top 27 facilities with the most operational errors. The other three facilities had
    increases in air traffic operations.



    Findings and Recommendations                                                                                       5
We reviewed severity rating data for a 13-month period from May 1, 2001, to
May 31, 2002, and found that 857, or 78 percent, of the 1,103 operational errors
rated posed a moderate to high safety risk, as shown in Figure 3. Based on our
statistician’s analyses, a more desirable statistical distribution, depicted by the
curved line in Figure 3, would be to have more low rated errors and very few
moderate to high rated errors. Our statistician concluded that the distribution of
operational errors should not represent a Bell or Normal curve, given the
undesirable nature of operational errors. Instead, the desired distribution should
be positively skewed, meaning that there should be a high number of “minor”
errors and a very small number of “severe” errors, relative to the total errors
reported. However, this is not the current state of operational errors. In fact, the
distribution of operational error severity ratings is almost negatively skewed,
which clearly shows that much work remains in reducing the overall safety risk of
operational errors.


      Figure 3—Actual Versus Desired Operational Errors
      Severity Distribution—May 1, 2001 to May 31, 2002

                          250

                                    Desired Operational Error Distribution
                          200                                                            191
                                                         178                 178
       Number of Errors




                                                                                   156          150
                          150
                                                                  121

                          100

                                                 56                                                      61
                          50

                                         11
                                1
                           0
          Points 1 - 9                 10 - 19 20 - 29 30 - 39 40 - 49 50 - 59 60 - 69 70 - 79 80 - 89 90 - 99
         Assigned

         Severity Level               Low = 246 or 22%               Moderate = 796 or 72%             High =
                                                                                                      61 or 6%


Because 78 percent of the operational errors rated posed a moderate to high safety
risk, it is important that FAA reduce the overall risk starting with the most serious
errors. As shown in Figure 3, of the 1,103 operational errors rated during the
13-month period from May 1, 2001, to May 31, 2002, FAA rated 61 as high
severity (90 to 99 points). As described in the following examples, high severity
errors are incidents where the aircraft barely avoided a collision.

Ø In May 2002, an operational error occurred at the Rochester, New York
  TRACON when a controller allowed two commercial airliners to lose


Findings and Recommendations                                                                                     6
   separation as they approached head-on. The airliners came within 200 feet
   vertically and 0.13 miles (about 790 feet) horizontally of a midair collision, as
   the pilot of one of the aircraft, responding to a Traffic Alert and Collision
   Avoidance System (TCAS) alert, took evasive action averting an accident.
   This incident scored 96 points.

Ø In October 2002, an operational error occurred at the Atlanta, Georgia
  TRACON when a controller allowed a large commercial airliner to pass a
  smaller commercial airliner within 1,000 feet horizontally at the same altitude.
  Wake turbulence separation requires aircraft to be no closer than 4 miles, or
  over 24,000 feet, behind certain larger aircraft. Maintaining wake turbulence
  separation is important because wake vortices (the disruption in the air
  generated by the wing tips of an aircraft, similar to the wake of a boat) can
  cause a trailing aircraft to move unexpectedly, lose control, and possibly crash.
  This incident scored 94 points.

Operational errors like these, where an accident is barely avoided, illustrate the
need for FAA to focus resources on reducing operational errors with a sense of
urgency.


FAA’s Severity Rating System Needs to Be Refined So That It
Better Identifies the Most Serious Operational Errors
Although FAA established a system to rate the severity of operational errors so it
can focus its resources on the most severe errors, the rating system does not
provide the true extent of the safety risk of an operational error. We found errors
classified as moderate that, in our opinion, posed a very serious safety risk.
Specifically, of the 1,103 operational errors FAA rated during the 13-month period
from May 1, 2001, to May 31, 2002, 61 errors, or 6 percent, were rated as high.
However, the rating categories, by design, allow for comparatively few errors to
be rated high (90 to 100) since the point range is only 11 points whereas moderate
errors are assigned a range of 50 points (40 to 89).

We found operational errors rated at the high end of “moderate” that, in our
opinion, were also very serious and should be rated “high” severity. For example,
as depicted in Figure 4, a very serious error occurred at the Philadelphia TRACON
in June 2001, when a controller directed one airliner head-on with another airliner
at a closure rate of 460 miles per hour. The two aircraft had only 43 percent of the
required 3-mile horizontal separation and were less than 12 seconds from a midair
collision. However, FAA rated this operational error as “moderate” with a score
of 87 points. It should also be noted that this error scored the maximum number
of points in 3 of the 5 rating categories (vertical distance, flight path, and control
factor).


Findings and Recommendations                                                        7
               Figure 4—Example of a Serious Operational Error
                            Rated as Moderate
                                  Collision in                                             How the Points Were Assigned:
                                   less than                                                                              Points
           6000 ft.               12 seconds                   6000 ft.              Vertical Distance,
                                                                                       0 feet:                        25 (max)
                                                                                     Horizontal Distance,
                                                                                                                                    *
                                Approaching at same                                    1.3 miles:                     14 (25 max)
                                 altitude and about                                  Flight Path,
                               7,900 feet horizontally                                 Opposite (head-on)             20 (max)
                                                                                                                                  *
        Airliner                    (or 1.3 miles)                Airliner           Closure Rate, 460 mph:            8 (10 max)
        253 mph                                                   207 mph            Control Factor,
                                                                                       Uncontrolled:                  20 (max)
                                                                                     Total Severity Rating            87
                                                                                     *
                                                                                         Maximum points criteria for a TRACON:
                                                                                          Horizontal - less than ½ mile
                                                                                          Closure rate – greater than 700 knots



     In our view, categorizing errors such as this one as “moderate” is misleading. We
     found that 95 percent of operational errors that scored between 70 and 89 points
     were considered “uncontrolled,” which means the controller was not aware the
     error was about to occur. Also, on average, these errors had only 50 percent of
     the required separation. Depending on the closure rate of the aircraft involved,
     these errors can be only seconds away from an accident.

     For example, using FAA’s severity rating data, we calculated the maximum
     closure rate for errors with less than 300 feet vertical separation and converging
     flight paths to identify those incidents that were within 30 seconds of a midair
     collision. We found that 65 of the 98 operational errors10 that were 30 seconds or
     less from a midair collision were scored between 70 and 89 points. By adding
     these 65 errors that were rated in the high end of “moderate” (70 to 89) to the
     61 errors FAA rated as “high,” we concluded that as many as 126 operational
     errors, or 11 percent of the 1,103 errors rated between May 1, 2001, and May 31,
     2002, could be considered very serious. In other words, the most serious
     operational errors occurred about once every 3 days during this 13-month period.

     In April 2002, FAA divided its moderate-rated operational errors into
     two categories: uncontrolled and controlled. Uncontrolled moderate errors are
     considered more serious because the controller was unaware that a loss of
     separation was about to occur and did not take timely action to prevent the error.
     FAA established its FY 2003 goal based on reducing the total number of
     moderate-uncontrolled and high severity errors.

     However, FAA actions do not address our concerns that the severity rating system
     does not clearly identify the most serious errors as high risk. Consequently, FAA

10
     For the remaining 33 errors, 31 were scored between 90 and 100 points and 2 were scored between 50 and 69 points.



     Findings and Recommendations                                                                                                   8
may not be able to accurately identify at-risk facilities—those facilities that have
high severity errors—and ensure controllers receive appropriate training for high
risk errors. Therefore, FAA needs to refine its point range used to identify high
severity operational errors so that all operational errors that pose a serious safety
risk are considered as high severity. Using its current severity system, the number
of close calls is understated.

In addition, FAA needs to identify and monitor statistics on the number of
operational errors by commercial, general aviation, and military aircraft. This is
important in measuring the overall safety impact of operational errors. For
example, operational errors that involve commercial aircraft should be identified
and monitored because they can place hundreds of passengers at risk.


FAA Procedures Do Not Require Training When Controllers Have
Multiple Operational Errors or Errors That Pose a Moderate or
High Safety Risk
On January 17, 2001, FAA and NATCA signed a Memorandum of Understanding
(MOU) establishing new procedures for the type of actions that can be taken when
operational errors occur. On April 27, 2001, in conjunction with implementing the
new severity rating system, FAA and NATCA expanded the MOU to take into
account the severity rating of the incident.           On August 15, 2002, the
MOU procedures were incorporated into FAA’s Air Traffic Quality Assurance
Order 7210.56C. One reason for the change in these procedures was that
controllers believed that actions taken as a result of an operational error were
punitive. In the past, supervisors could decertify a controller and provide remedial
training even if the error was the controller’s first operational error and did not
pose a safety risk. We agree with FAA’s decision to eliminate the perception that
actions taken after an operational error are punitive; but we do not consider
training to be punitive.

However, FAA’s procedures under the MOU and quality assurance order do not
require training when controllers have multiple operational errors or for controllers
who have operational errors that pose a moderate or high safety risk. In addition,
the procedures do not allow managers to revoke or suspend Control Tower
Operator licenses and Facility Ratings of controllers who have performance
deficiencies.




Findings and Recommendations                                                       9
     Controllers With Multiple Errors
     Training is not required for a controller who has a low severity error classified as a
     technical violation,11 even if the controller has had previous errors. In fact, there is
     no limit on the number of technical violations a controller can have before training
     is required. In our view, when a controller has more than one operational error,
     this represents a potential performance problem that should be addressed through
     the appropriate training before a more serious operational error occurs. For
     example, a controller had three operational errors within a 2-year period, but did
     not receive any training after the second and third errors because the errors were
     categorized as technical violations. Less than 1 year later, the controller had a
     fourth operational error that was rated in the high end of moderate. While the
     controller did receive training after the fourth error, training provided after the
     second or third error possibly could have prevented the fourth error.

     Further, our review of FAA operational error data showed that the number of
     controllers with more than 1 error in the past 2½ years12 has increased 32 percent,
     from 145 in FY 1999 to 191 in FY 2001. In FY 2001, 39 of the 191 controllers
     who had more than 1 error, made operational errors that were categorized as
     technical violations. FAA procedures do not require the controllers to receive any
     training for technical violations.

     NTSB expressed concern that there was no limit on the number of technical
     violations a controller could have. In a letter to FAA, dated February 7, 2001, and
     in congressional testimony13 on March 28, 2001, NTSB indicated that it would
     expect that an “acceptable number of these violations would be strictly limited,
     and that such errors would not become routine.” NTSB also stated “Standards that
     can be violated repeatedly without consequence are no longer standards.”

     Controllers With Moderate or High Errors
     FAA does not require that training be provided for controllers who have moderate
     or high severity operational errors. Our review of 85 moderate and high severity
     operational errors disclosed that the controllers involved did not receive any
     formal training for 18 (21 percent) of these errors. For example, a controller’s

11
     With the implementation of FAA’s severity rating system in April 2001, all low severity operational errors are
     classified as technical violations. Training is prohibited for errors that have an air traffic control classification of
     “controlled.” For low severity errors classified as “uncontrolled,” training “may be” required, but it is not mandatory.
     Prior to implementing the severity system, the January 17, 2001 MOU required all errors with 80 percent or more of
     required separation between aircraft to be classified as technical violations. Training was prohibited for all of these
     errors.
12
     In accordance with union provisions, FAA maintains records of operational errors for individual employees for a
     2½-year period. After the 2½-year period, all record of the operational error is removed from the employee’s files.
13
     Testimony of Carol Carmody, Acting Chairman, NTSB, before the Committee on Appropriations, Subcommittee of
     Transportation and Related Agencies, House of Representatives, Regarding Aviation Safety, March 28, 2001.



     Findings and Recommendations                                                                                        10
     failure to properly sequence air traffic on arrival into an airport resulted in
     four operational errors within a 6-minute period. Two errors were rated as high
     and two were rated as moderate. The supervisor reviewed the voice and radar
     tapes with the controller and made suggestions to improve performance, but the
     controller received no formal training. FAA procedures for determining what
     actions to take after moderate or high severity errors are not clear. The procedures
     state only that skill enhancement training “may” be provided and, therefore, are
     open to interpretation. Instead, the procedures should set a minimal level of
     training.

     FAA’s Actions to Address Controller Performance Deficiencies Are
     Limited
     The MOU dealing with operational errors and FAA’s Air Traffic Quality
     Assurance Order 7210.56C do not allow managers to revoke or suspend Control
     Tower Operator licenses and Facility Ratings of controllers who have performance
     deficiencies. NTSB, in its February 2001 letter to FAA, stated that this provision
     appears to preclude the FAA from revoking or suspending controller certificates
     and facility ratings as a means of addressing performance deficiencies. NTSB
     indicated “It is difficult to discern the safety benefit in the FAA prospectively
     waiving the right to suspend or revoke facility ratings or initiate a certificate action
     against a controller who demonstrates serious performance deficiencies.” NTSB
     went on to state “If an individual’s performance is of such concern that these
     actions appear necessary, we expect that FAA would proceed accordingly.” We
     found that FAA officials at one region and facility14 had concerns regarding
     performance deficiencies of controllers and indicated that the MOU and FAA
     procedures limited the actions they could take to address controller deficiencies.

     While we recognize that only a small number of controllers make operational
     errors, FAA needs to strengthen its actions to address controller performance
     deficiencies when operational errors are made. In FY 2001, less than 2 percent of
     the controller workforce (only 191 controllers in a workforce of about 15,000) had
     more than 1 operational error. FAA needs to ensure that training is provided to
     controllers who continue to make operational errors, regardless of the severity, to
     address the factors causing the errors. A minimum level of training should be
     required for controllers who make a moderate or high risk operational error. To
     address serious performance deficiencies for continued operational errors, even
     after training is provided, FAA should take steps, in conjunction with NATCA, to
     rescind the applicable provisions in the MOU and the air traffic quality assurance
     order that preclude managers from revoking or suspending a controller’s Control
     Tower Operator license or Facility Rating based on performance deficiencies.


14
     This region and facility were not among the locations we visited during our review.



     Findings and Recommendations                                                          11
     FAA Needs to Determine if the Expanded Use of the CIC Program
     Has Increased Operational Errors
     To address safety concerns identified in our 1998 report on the Controller-in-
     Charge (CIC) Program,15 FAA needs to take additional action to ensure that the
     Program does not adversely impact safety. The CIC Program was expanded as a
     result of a 1998 agreement between FAA and NATCA to reduce the number of air
     traffic control supervisors by about one-third. To offset the reduction of
     supervisors, FAA agreed to use CICs to provide oversight of air traffic operations
     during the absence of supervisors. In January 2001, FAA began its reduction of
     supervisors and the expanded use of CICs.

     In October 2000, we issued a letter to FAA urging it to rescind its practice of
     allowing all controllers to become CICs after we were informed that one facility
     had designated 100 percent of its controllers as CICs. Based on our review of
     more current FAA data,16 at least 118 facilities either set a goal of designating or
     had designated 100 percent of their controllers as CICs. This includes large
     facilities such as the Dallas-Fort Worth Tower, the Atlanta Tower/TRACON and
     En Route Center, and LaGuardia Tower. While designating 100 percent of
     controllers as CICs may be necessary at smaller facilities, it is not reasonable for
     larger facilities. While FAA maintains that all CICs are qualified, Congress was
     concerned, as we were, that FAA was allowing facilities to designate all
     controllers as CICs, rather than ensuring that only the most qualified controllers
     are selected. Because of this concern and the increasing number of operational
     errors and runway incursions, Congress, in the FY 2002 Appropriations Bill,
     halted further expansion of the CIC Program and reduction of the number of
     supervisors. Further, our analysis indicates that the CIC Program may have had a
     negative impact on operational errors and that additional actions are needed to
     monitor the safety of this Program.

     To evaluate the impact of this Program, we compared the number of operational
     errors that occurred while CICs were supervising with the number of errors that
     occurred while supervisors were supervising for calendar years (CY) 2000 and
     2001.17 We found that operational errors that occurred when a CIC was
     responsible for supervising the area increased at a much greater rate than did the
     use of CICs. As shown in Figure 5, the percentage increase in operational errors


15
     “Staffing: Reductions in Supervisors Will Require Enhancements to FAA’s Controller-in-Charge Program” (Report
     Number AV-1999-020, November 16, 1998).
16
     FAA facility evaluation data for 156 facilities that had facility evaluations performed between July 24, 2001, and
     May 23, 2002.
17
     Overall, operational errors increased from 1,137 to 1,183, or 4 percent. FAA’s database did not indicate for 8 of the
     1,137 operational errors in CY 2000 and 61 of the 1,183 operational errors in CY 2001 whether a supervisor or CIC
     was on duty.



     Findings and Recommendations                                                                                     12
was three times the percentage increase in hours CICs were used. Further, these
errors, as a percentage of total errors, also increased.

    Figure 5—Number of CIC Hours Worked Compared to
         Number of Errors While a CIC Was on Duty
                                                                                    Percent
                                CY 2000           CY 2001            Change         Increase
      Number of
      CIC Hours*               2,044,222         2,321,485           277,263         13.6%
      Number of Errors
      When CIC on Duty            138               201                63            45.7%
      Percentage of
      Total Errors                12%               17%                5%              --

   * We obtained the number of CIC hours from the Civilian Unified Payroll System (CUPS). About
   9,000 controllers have been certified as CICs, but they are not used on a full-time/daily basis.
   Therefore, it was more accurate to use the number of hours CICs worked instead of the number of
   CIC positions for these calculations.

The following are examples of facilities where operational errors increased while a
CIC was responsible for supervising the area.

Ø At the Chicago en route center, operational errors that occurred while CICs
   were on duty increased 400 percent, from 2 in CY 2000 to 10 in CY 2001.
   However, the hours that CICs were used increased only 209 percent.

Ø At the Baltimore-Washington air traffic control facility, operational errors that
   occurred while CICs were on duty increased from one in CY 2000 to three in
   CY 2001, or 200 percent. However, the number of hours CICs were used
   increased only 19 percent. Further, all three operational errors that occurred in
   the first 5 months of CY 2002, happened while CICs were on duty.

We recognize that an increase in the number of operational errors while CICs are
on duty does not alone prove that the Program has had an adverse impact on
safety. According to FAA air traffic officials, there could be other factors
contributing to the increase in operational errors while CICs are on duty. For
example, CICs may be working during the busier periods when an error is more
likely to occur. However, in our opinion, the statistics are an indicator that the
CIC Program may be adversely impacting operational errors, and these statistics
warrant a more detailed review. Until FAA performs detailed evaluations of those
facilities that have significant increases in operational errors while CICs are on
duty, the reasons for the increases will not be known.

Accordingly, FAA needs to establish quality assurance procedures at the national
level to monitor the safety impact of the CIC Program on a facility-by-facility


Findings and Recommendations                                                                   13
basis and perform detailed evaluations of those facilities that have significant
increases in operational errors while CICs are on duty. In doing so, FAA needs to
closely evaluate the qualifications of controllers performing CIC functions and the
quality of training. If actions taken do not reverse the upward trend in operational
errors while CICs are on duty, then FAA should limit the use of CICs to only the
most qualified candidates.


FAA Needs to Take More Aggressive Actions to Correct Regional
and Facility-Specific Problems
We found that FAA needs to take more aggressive actions to meet the intent of
recommendations in our December 2000 report to improve its national oversight
of regions and facilities with high numbers of operational errors.


Oversight of Regions
FAA needs to take more aggressive actions to improve its national oversight of
regional efforts to reduce operational errors.

Ø Three of the four regions that we visited (Great Lakes, Southern, and Eastern)
  provided little documentation to show that they had visited problem facilities,
  identified why operational errors were occurring, and followed up to ensure
  identified problems were corrected. In FY 2002, the Great Lakes Region led
  the Nation with the most operational errors and experienced a 19 percent
  increase over FY 2001. Also, the Great Lakes and Southern Regions did not
  meet their regional goals for errors with less than 80 percent separation
  between aircraft.

   On the other hand, the fourth region we reviewed, Western-Pacific Region, had
   a structured process and plan in place to identify, track, and review facilities
   with operational error problems. Not surprisingly, the Western-Pacific Region
   was one of only two of FAA’s regions that met FAA’s FY 2001 goal of no
   more than five errors per million operations. In addition, in FY 2002, this
   region’s operational errors decreased 22 percent, and the region met its
   regional goal of no more than 65 operational errors with less than 80 percent
   separation between aircraft.

Ø FAA had not completed its review and approval of regional quality assurance
  plans that were revised based on guidance issued in August 2001. Regional
  quality assurance plans are important because they include the initiatives the
  region plans to take to prevent and reduce operational errors and should be
  used to measure the effectiveness of regional actions to reduce operational
  errors.


Findings and Recommendations                                                     14
Ø In response to our report, in July 2001, FAA established a full-time position for
  a National Program Manager for Quality Assurance to oversee and improve
  regional and facility efforts to reduce operational errors. One of the key duties
  for this person was to review the regional plans to ensure they met the intent of
  national guidelines. However, the person assigned to this position had been
  detailed to several special projects and, in April 2002, was detailed to act as an
  assistant facility manager at a major air traffic control tower for 7 months.
  FAA transferred this person back to this position in November 2002.

Once FAA completes its review of regional quality assurance plans, FAA needs to
hold the regions accountable for implementing regional initiatives to reduce
operational errors. To do so, FAA should periodically assess the regions’ efforts
to ensure progress is being made in correcting facility-specific problems.


Oversight of Facilities
FAA has taken action to improve its national oversight of problem facilities since
we issued our report in December 2000, but more aggressive actions are still
needed. For example, 13 of the top 27 facilities with the most operational errors in
FY 2002 made no progress in reducing their errors from FY 2001 levels (see
Exhibit C). We found that although FAA had performed national reviews of
problem facilities, improvements were needed to ensure (a) recommended actions
were completed timely and were effective at reducing errors, and (b) reviews of
problem facilities were consistent in identifying and tracking problems related to
operational errors. Specifically:

Q In FY 2001, FAA completed national reviews of 23 facilities with the most
   operational errors or increasing trends in operational errors. However, it did
   not follow up to ensure recommended actions were completed timely or to
   determine if corrective actions taken were effective. For example, as a result
   of a review in May 2001 at the Atlanta En Route Center, FAA made
   five recommendations to address deficiencies that led to operational errors. As
   of April 2002 when we visited this facility, actions to implement two of these
   five recommendations (which related to improving controller training) were
   not complete. In FY 2002, this facility’s operational errors increased 9 percent
   from FY 2001.

Q In response to budget reductions, in March 2002 FAA combined its facility
   evaluation process and its national reviews of problem facilities into
   one review. Operational error-related problems identified during these reviews
   will be entered into a database for tracking purposes. In FY 2002, FAA
   conducted 34 of these reviews. However, our audit found that the reviews are
   not always consistent in identifying and tracking problems related to


Findings and Recommendations                                                     15
   operational errors. For example, at one facility, FAA cited operational error
   training as a problem area and will track the resolution of this problem at the
   national level. However, at another facility where the same deficiency was
   cited, it was identified as an informational item, which requires no response
   from the facility and will not be tracked at the national level. At a
   third facility, this issue was not addressed by the review. All three reviews
   were performed by different Air Traffic Evaluations Branch field offices.

FAA needs to ensure that its Air Traffic Evaluations Branch field offices are
consistent in how they identify and track operational error deficiencies.


FAA Must Complete Initiatives in the 3-Year Plan for Operational
Error Prevention in a Timely Manner
To FAA’s credit, in August 2002, FAA and NATCA jointly issued a 3-year plan
to prevent operational errors. This plan is a step in the right direction and includes
some key actions to reduce operational errors. For example, the plan establishes a
National Safety Board that will be responsible for identifying and reviewing “at-
risk” facilities. Facilities with significant increases in errors or with significant
numbers of high severity errors are considered to be “at risk.” The plan also
contains initiatives to improve controller training and to determine the root causes
of operational errors. One of the initiatives in the plan is to establish a catalog of
national, regional, and local initiatives. Facilities will be able to select and
implement initiatives from this catalog. A steering committee will track and
evaluate the effectiveness of the initiatives in reducing operational errors.
However, FAA must ensure that responsible parties are held accountable for
completing these initiatives on schedule.


FAA Must Complete Key Human Factors Initiatives
Since almost 90 percent of operational errors are attributed to human factors issues
rather than procedural or equipment deficiencies, it is important that FAA develop
initiatives to prevent these types of errors. In FY 2002, FAA initiated two key
human factors studies to improve controller performance and better identify the
causal factors of errors. In March 2002, FAA completed a prototype memory
enhancement training program to evaluate a skills-based approach to develop
controller mental skills (e.g., visual processing, concentration, and scanning
ability). According to FAA air traffic officials, the study was a success and
improved controller mental skills by 16.5 percent in a 6-week period. In a post-
evaluation of the pilot training program, participants found the experience made a
significant positive impact on their personal performance. Because of funding
limitations, FAA is now exploring the feasibility of developing similar training
internally so it can be provided nationally.


Findings and Recommendations                                                       16
FAA also initiated a study to develop a human factors technique for analyzing
causal factors in operational errors. This study is called the JANUS program. The
goal of JANUS is to identify effective solutions to prevent future errors. The
program uses a cognitive approach to identify causal factors leading to operational
errors, i.e., what was the controller thinking about when the error occurred. It not
only evaluates the person, but also the environment, task, and equipment factors
that may have contributed to the error. FAA completed its initial tests to validate
the methodology used to collect data in March 2003. FAA plans to start field
testing in August 2003.


Recommendations
To reverse the upward trend in operational errors, we recommend that FAA:

   1. Reexamine its decision to assign only an 11-point range (90 to 100) for high
      severity errors and expand the range below the 90-point lower limit so that
      resources are focused on all errors that pose a very serious safety risk.

   2. Take action, in conjunction with NATCA, to rescind applicable provisions
      of the January 17, 2001 MOU and its April 27, 2001 addendum that revised
      the training requirements for operational errors and precluded managers
      from revoking or suspending controller Control Tower Operator licenses
      and Facility Ratings based on performance deficiencies.

   3. Revise FAA Air Traffic Quality Assurance Order 7210.56C to (a) require
      that controllers who are involved in multiple errors receive training,
      (b) require that controllers who have moderate and high rated operational
      errors receive training, and (c) eliminate the provision that precludes
      managers from revoking or suspending controller Control Tower Operator
      licenses and Facility Ratings based on performance deficiencies.

   4. Establish procedures to monitor, at the national level, the impact that the
      expanded CIC Program and reduction in the number of supervisors has had
      on operational errors on a facility-by-facility basis. For those facilities
      where operational errors have increased when CICs were on duty, FAA
      should perform a detailed review of the CIC Program to determine if CICs
      are contributing to the increase. If actions taken do not reverse the upward
      trend in operational errors while CICs are on duty, then FAA should limit
      the use of CICs to only the most qualified candidates.

   5. Improve national and regional oversight by (a) ensuring a permanent
      National Program Manager for Quality Assurance is assigned to provide
      oversight of regional efforts to reduce operational errors, (b) completing the


Findings and Recommendations                                                     17
      review and approval of regional operational error reduction programs,
      (c) conducting reviews of regional quality assurance offices to ensure
      regions are complying with their plans and are held accountable for
      addressing facilities in their region that do not show progress at reducing
      operational errors, and (d) establishing clear guidelines for identifying and
      tracking operational error-related deficiencies identified during facility
      evaluations to ensure these deficiencies are treated consistently among
      FAA’s Evaluations offices.

   6. Establish a mechanism to ensure responsible parties are held accountable
      for completing initiatives in FAA’s 3-Year Plan for Operational Error
      Prevention in a timely manner.

   7. Expand and implement nationwide the human factors initiative for memory
      enhancement training.

   8. Identify and monitor statistics on the number of operational errors by
      commercial, general aviation, and military aircraft.


FAA Comments and Office of Inspector General Response
On March 21, 2003, FAA provided written comments (see Appendix) to our
February 26, 2003 draft report. On March 28, 2003, FAA provided revised
comments for recommendations 2 and 3 relating to revising training requirements
for operational errors.

For recommendations 2 and 3, FAA officials stated that they are currently
involved in a review of existing MOUs, which includes re-examining the
provisions of the MOU on training requirements for operational errors. We
consider FAA’s proposed actions to be responsive; however, FAA needs to
provide a target date for actual implementation of these recommendations. These
recommendations will remain open, and we will monitor FAA’s progress in re-
examining the MOU and revising training requirements.

For recommendation 5, FAA agreed to improve national and regional oversight, as
recommended, and has established a permanent National Program Manager for
Quality Assurance. Also, FAA proposed actions to complete its review and
approval of regional quality assurance plans by April 15, 2003; review regional
efforts to reduce operational errors on a continuous basis; and establish clear
guidelines for identifying and tracking operational error-related deficiencies
during facility evaluations by May 1, 2003. We consider these actions responsive
and this recommendation resolved.



Findings and Recommendations                                                    18
For recommendation 7, FAA agreed to expand and implement the human factors
initiative for memory enhancement training. We consider FAA’s proposed actions
to be responsive; however, FAA needs to provide a target date for actual
implementation of memory enhancement training.

FAA’s response to recommendation 1, to reexamine how it rates high severity
operational errors, does not fully address whether FAA intends to expand the
range below the 90-point lower limit. FAA indicated that, while it believes the
rating categories for operational errors accurately rate the degree to which
separation standards were violated, it will work with FAA’s Chief Scientist for
Human Factors to scientifically validate the point values. However, FAA did not
indicate whether it planned to take any action to expand its range for high severity
operational errors. This is important because, as we state in the report, high
severity operational errors only have an 11-point range while operational errors
rated as moderate have a 50-point range. Within the 50-point range, some
operational errors pose a serious safety risk. For example, we identified
65 operational errors rated as moderate where the aircraft involved were within
300 feet vertically, had converging paths, and were within 30 seconds of a midair
collision. One of these operational errors involved two commercial airliners,
approaching head-on at a closure rate of 460 miles per hour; they were less than
12 seconds from a midair collision when they took evasive action. FAA needs to
accurately identify all serious operational errors to ensure that it focuses resources
on reducing the most dangerous operational errors. We request that FAA clarify
its response to indicate what action it plans to take and provide a target date for the
completion of this action.

FAA also needs to clarify its response to recommendation 4, to establish
procedures to monitor, at the national level, the impact the expanded CIC Program
has on operational errors and to perform detailed reviews of facilities where
operational errors have increased while CICs are on duty. FAA stated it agreed
with our recommendation and will include CIC information in the agency’s
operational error causative analysis efforts. However, it is not clear if FAA’s
causative analysis efforts will include monitoring the impact of the expanded
CIC Program on operational errors. Also, FAA did not respond to two elements of
recommendation 4, to (a) perform a detailed review of the CIC Program at those
facilities where operational errors have increased when CICs were on duty to
determine if CICs are contributing to the increase, and (b) limit the use of CICs to
only the most qualified candidates if actions taken do not reverse the upward trend
in operational errors while CICs are on duty.

As we reported, in order to make additional progress in reducing operational
errors, it is important that FAA closely monitor the CIC Program on a facility-by-
facility basis. From CY 2000 to CY 2001, operational errors that occurred while a


Findings and Recommendations                                                        19
CIC was on duty increased 46 percent. Until FAA conducts detailed evaluations
of those facilities that have significant increases in operational errors while CICs
are on duty, the reasons for the increases will not be known.

It is not clear how FAA’s proposed actions for recommendation 6, to establish a
mechanism to ensure responsible parties are held accountable for completing
initiatives in FAA’s 3-Year Plan for Operational Error Prevention, will ensure
initiatives are completed timely. FAA stated it has made progress in establishing
accountability because operational error prevention and goals are tied to Air
Traffic Division Managers’ appraisals and senior executive compensation
packages. While we commend FAA for these actions, it is not clear how these
goals are tied to specific initiatives in the 3-Year Plan and whether there is a
requirement that the initiatives be completed on schedule. Therefore, we request
that FAA provide us additional comments on specific actions it plans to take to
hold managers accountable for completing initiatives in its 3-Year Plan on
schedule, as well as anticipated completion dates for these actions.

For recommendations 1, 4, and 6, FAA’s proposed actions do not address the
intent of our recommendations or are unclear. Therefore, we are requesting that
FAA provide additional information on their proposed actions.

Recommendation 8, to identify and monitor statistics on the number of operational
errors by commercial, general aviation, and military aircraft, was not included in
our February 26, 2003 draft report. Therefore, we are requesting that FAA
provide comments on this new recommendation. If you concur, please provide the
specific action taken or planned and a target date for completion. If you
nonconcur, please provide your rationale.




Findings and Recommendations                                                     20
                       Finding B. Actions Are Needed to
                      Reduce Runway Incursions Further
     FAA continued to focus on reducing runway incursions and has made progress
     this past year. In June 2001, FAA established a system to categorize runway
     incursions into four levels of accident risk to target reduction efforts on the most
     serious incursions. The four risk levels described in part are:

         -    A:   barely avoid a collision,
         -    B:   significant potential for a collision,
         -    C:   ample time and distance exists to avoid a potential collision, and
         -    D:   little or no risk of a collision exists.

     In addition, FAA’s full-time regional runway safety managers, appointed in
     October 2000, conducted a total of 183 safety evaluations of runways at specific
     airports in FYs 2001 and 2002. The safety evaluations are used to identify
     runway-specific problems that may lead to runway incursions and to identify
     actions to correct these problems. The actions are entered into a national database,
     and the Office of Runway Safety uses the database as a management tool to
     monitor regional progress toward completing actions on schedule.

     FAA missed its FY 2001 goal of no more than 243 runway incursions by
     67 percent, with 407 incursions.18 In FY 2002, runway incursions decreased to
     339, or about 17 percent. For FY 2002, FAA revised its goal to focus on the most
     serious incidents. Its goal was to have no more than 53 runway incursions in the
     two highest risk categories (Categories A and B). As shown in Figure 6, FAA met
     its FY 2002 goal with 37 such incursions, down 30 percent from FY 2001.
     However, an average of at least one high risk runway incursion every 10 days is
     still too many.

                 Figure 6—Category A and B Runway Incursions
                               FYs 1998-2002
                          F Y 19 9 8            36              59
                          F Y 19 9 9            42                   69        Total A's and B's
                         FY 2 00 0              40                   67
                                                                               At Least One Commercial
                          FY 2 0 0 1            31         53                  Aircraft Involved
                         FY 2 00 2         13         37

                                       0        20   40    60             80



18
     Starting in October 2000, FAA changed its goal for reducing runway incursions from a calendar year to a fiscal year
     basis. After a record high of 431 runway incursions in CY 2000, runway incursions decreased to 383 in CY 2001.



     Findings and Recommendations                                                                                   21
In the first 5 months of FY 2003, runway incursions increased 18 percent from
114 to 135 compared to the same period in FY 2002. During this same 5-month
period, the 2 highest risk categories of runway incursions decreased from 17 to 10
compared to the same period in FY 2002. While the progress in reducing the most
serious runway incursions is encouraging, it is important that FAA take additional
actions to further reduce the number and safety risk of runway incursions,
especially since FAA projects that air traffic operations will return to pre-
September 11th growth patterns between 2005 and 2007.

The following examples demonstrate the seriousness of runway incursions.

Ø In April 2002 at the Atlanta Airport, a Piper Cherokee general aviation aircraft
  taxied onto an active runway without authorization and was narrowly missed
  by a Boeing 737 as it was taking off.

Ø In February 2002, an Airbus 319 was instructed to taxi to and stop short of an
  active runway at Baltimore-Washington Airport. Instead, the Airbus crossed
  the active runway without authorization. A McDonnell Douglas 11 (MD-11)
  taking off on the same runway aborted the takeoff roll when the pilot observed
  the Airbus crossing in front of him. The MD-11 was able to stop just 500 feet
  from the Airbus.

While progress has been made in reducing runway incursions this past year, the
numbers are still much too high. In FY 2002, on average, almost one runway
incursion occurred every day. Even though serious runway incursions decreased
30 percent in FY 2002, an average of one serious runway incursion every 10 days
is still too many. Also, 13 of these serious incursions involved at least
1 commercial aircraft, or about 1 each month. Because commercial aircraft are
likely to carry many passengers, the risk that one collision with a commercial
aircraft could occur each month is still very serious.

According to the Director of the Office of Runway Safety, “the decrease in
runway incursions in FY 2002 must not lead to complacency. The number of
fatalities from a single runway collision could be catastrophic. Therefore,
improvement is essential to reduce the risk.” In our opinion, FAA has
appropriately focused its resources on reducing runway incursions and has made
progress. However, FAA can make even more progress if it completes actions to
implement recommendations in our June 2001 report (see Exhibit F) and continues
to aggressively pursue ways to reduce runway incursions further.


Analysis of the Decrease in Runway Incursions
We analyzed the decrease in runway incursions from FYs 2001 to 2002 (407 to
339) to determine what impact the reduction in air traffic operations may have had


Findings and Recommendations                                                   22
     on the decrease in incursions. During this same time period, operations at towers
     decreased about 1.3 million operations, or about 2 percent. We performed a
     statistical correlation analysis19 on a monthly basis for FY 2001 and FY 2002,
     comparing total tower operations to runway incursions, and concluded there was a
     positive correlation. In other words, as tower operations decreased nationwide,
     runway incursions decreased. Conversely, the more tower operations there are
     nationwide, the more opportunities exist for a runway incursion or runway
     accident.

     However, as stated in FAA’s June 2002 Runway Safety Report,20 traffic volume is
     not the only factor contributing to the potential for runway incursions. Airport-
     specific factors also influence the potential for a runway incursion. For example,
     we performed a statistical correlation analysis on a facility basis for 13 airports
     with the most runway incursions in either FY 2001 or FY 2002 comparing the
     number of tower operations to runway incursions21 and concluded that there was
     no correlation for these 13 airports. However, as FAA runway safety officials
     indicated, other factors contributed to the decrease in runway incursions at these
     airports.

     For instance, the decrease in runway incursions at 3 of the 13 airports accounted
     for 31 percent of the total decrease nationwide (21 out of a total decrease of
     68 incursions from FY 2001 to FY 2002): John Wayne Airport, Orange County,
     California; Fort Lauderdale Executive Airport, Florida; and Buchanan Field,
     Concord, California. Runway safety officials attributed the decrease in runway
     incursions at these airports to national, regional, and site-specific initiatives to
     reduce runway incursions. For example, FAA conducted runway safety reviews at
     these three airports during FY 2001 or FY 2002. As a result, improvements, such
     as better runway/taxiway markings, signs, and lighting systems, were made at
     these airports to prevent runway incursions. In addition, pilot education programs
     were implemented.


     Actions to Implement Technological Solutions to Prevent
     Runway Incursions Are Still Needed
     Although FAA has made progress in implementing some technologies, other
     technologies are still needed to reduce runway incursions further.


19
     A statistical correlation analysis measures the extent to which a relationship exists between two or more variables. We
     used SPSS statistical software and plotted the number of tower operations to the number of runway incursions to
     evaluate the correlation, or relationship, that these two variables had with one another.
20
     “FAA Runway Safety Report - Runway Incursion Trends at Towered Airports in the United States,” CY 1998 –
     CY 2001, dated June 2002.
21
     Runway incursions decreased at 10 of these airports and increased at 3 airports.



     Findings and Recommendations                                                                                       23
     Ø In 2001, after 10 years of development and $86 million in cost overruns, FAA
       began commissioning the Airport Movement Area Safety System (AMASS) to
       alert controllers of potential collisions at the 34 largest airports. As of
       December 31, 2002, FAA commissioned 25 systems at 24 airports, and plans
       to commission systems at the remaining 10 airports by the end of 2003.
       However, FAA has experienced significant delays, 7 to 10 months, in its
       commissioning schedule for four airports—Cleveland, Minneapolis, Kansas
       City, and Denver. Most of the delays were due to the need to make software
       changes, fix equipment technical problems, or make physical changes to the
       airport surroundings to remove obstructions that blocked radar transmissions.
       However, at Cleveland, part of the delay was due to the lack of funds to train
       equipment technicians. FAA has addressed these problems and must make
       sure that resources are available to limit future delays. However, AMASS will
       not prevent runway incursions in all situations and does not directly alert
       pilots of potential collisions; therefore, other technological solutions are still
       needed.

     Ø FAA needs to complete its efforts to identify and implement low-cost
          technologies and solutions at airports with continued runway incursion
          problems. As recommended in our June 2001 report, FAA completed its initial
          review of six low-cost emerging technologies in July 2002 and recommended
          that three of the technologies (ground markers, runway status lights, and smart
          boards)22 be further evaluated. FAA’s next step is to ensure these low-cost
          technologies are advanced to high risk airports, as recommended. Also, as
          recommended, FAA conducted reviews at the 13 problem airports that had 10
          or more runway incursions over a 4-year period (1997 to 2000) but were not
          scheduled to receive any technology plus 3 additional airports FAA identified
          for review. (See Exhibit D for an updated list of airports with 10 or more
          runway incursions from 1999 to 2002.) FAA published its findings and
          recommendations from these reviews on January 29, 2003, in its Runway
          Incursion Airport Assessment Report. FAA’s next step is to ensure that
          actions to implement these recommendations are completed timely. In
          addition, based on our updated list of airports with 10 or more runway
          incursions, there are 4 additional problem airports23 that have no technology
          scheduled. FAA should conduct technology reviews at these four airports.

     Ø Because 56 percent of runway incursions in FY 2002 were caused by pilots, it
          is important that FAA also expedite technologies for pilots, as we

22
     Ground markers transmit audible messages to the pilot regarding the runway status, i.e., alert the pilot if the runway is
     occupied. Runway status lights provide the pilot a visual signal, similar to a traffic light, regarding the runway status.
     Smart boards are electronic bulletin boards that are placed at taxiway/runway intersections to provide pilots with
     advisory messages.
23
     These airports are: Denver/Jeffco, Colorado; Prescott, Arizona; Fresno, California; and Palm Beach, Florida.



     Findings and Recommendations                                                                                         24
         recommended in our June 2001 report. However, FAA and the aviation
         industry have not made a decision to expedite technologies, such as the
         in-cockpit surface moving map displays, that may have significant potential for
         reducing runway incursions caused by pilots. According to FAA officials,
         efforts to expedite these technologies have been slowed due to the economic
         slowdown of the airline industry, which became more pronounced after
         September 11th. FAA officials stated that because major investments in
         security are being made while revenue is down, most airlines have no budget
         for new avionics. In an effort to expedite moving map technology, FAA is
         working with the aviation industry in developing a portable surface moving
         map display that can be used with an Electronic Flight Bag.24 In addition,
         FAA is moving forward with developing 78 airport surface moving maps by
         the end of 2004 so the maps will be available once the airlines are able to
         install the technology needed in the cockpit.


     Actions to Improve Program Accountability Have Not Been
     Completed
     As we reported in June 2001, improvements in program oversight were needed
     because initiatives to reduce runway incursions were not completed on time,
     completed initiatives were not evaluated to determine if they were working, and
     regional efforts were not periodically assessed to ensure that progress is being
     made to reduce runway incursions at airports. In August 2001, FAA established a
     mechanism to improve regional accountability by establishing a database for
     tracking and following up on recommendations made during runway safety
     reviews of specific airports. FAA Headquarters and regional offices use the
     database to ensure recommended actions are completed. FAA is also using the
     data in this database along with its runway incursion database to measure the
     effectiveness of these efforts.

     Runway safety officials believe FAA’s ability to meet future milestones in
     implementing runway safety initiatives will be improved with the implementation
     of its 2002-2004 Runway Safety Blueprint, issued in July 2002. In developing the
     Blueprint, FAA coordinated with and obtained approval of all its lines of business.
     The Blueprint identifies FAA’s goals and initiatives to reduce runway incursions,
     assigns a lead organization responsibility for each initiative, and requires lead
     organizations to prepare an implementation plan for each initiative.

     However, we are not convinced that actions taken to date will improve program
     accountability at the national level. Contrary to our recommendation, FAA’s

24
     Electronic Flight Bags can display a variety of aviation data, including runway maps, which in the past were obtained
     from paper documents or an airline’s flight dispatch function.



     Findings and Recommendations                                                                                     25
Runway Safety Program Director still has no authority to ensure that initiatives
undertaken by various FAA lines of business are completed on schedule and does
not provide input on individuals’ performance appraisals and bonuses. As
previously reported, many initiatives to reduce runway incursions over the years
were not completed on schedule.

For instance, in August 2000, FAA identified 10 near-term initiatives that were to
be completed by early 2001. Seven of these 10 initiatives were completed 6 to
21 months behind schedule. For example, one of the initiatives was to enhance
operational tower controller training. The initiative was originally scheduled to be
completed no later than December 31, 2000, but was not completed until
September 2002, 21 months later.

In our opinion, the process established by FAA to have the Office of Runway
Safety monitor the progress of other lines of business in meeting their milestones
will not work if the Office of Runway Safety has no authority over the lines of
business. FAA needs to establish a mechanism at a level where appropriate
actions and priorities can be directed above the lines of business. Without such a
mechanism, there is no assurance that actions in this Blueprint will be completed
any more timely than actions contained in FAA’s four prior action plans issued
over the last 10 years.


Recommendations
FAA must move expeditiously to complete recommendations made in our June
2001 report to reduce runway incursions further. Specifically, FAA needs to
(1) advance low-cost technologies to high risk airports; (2) expedite technologies,
such as in-cockpit surface moving map displays, to aid pilots in reducing runway
incursions; and (3) improve program accountability. See Exhibit F for details. In
addition, we are making two new recommendations. Specifically, FAA should:

1. Implement recommendations in its Runway Incursion Airport Assessment
   Report, published January 29, 2003, made as a result of technological reviews
   of the 13 problem airports identified in our 2001 report.

2. Conduct reviews at the 4 airports that had 10 or more runway incursions over
   the 4-year period 1999 to 2002 to determine whether technological solutions
   are needed.


FAA Comments and Office of Inspector General Response
On March 21, 2003, FAA provided written comments (see Appendix) to our
February 26, 2003 draft report. FAA indicated that actions are being taken to


Findings and Recommendations                                                     26
address recommendations in our June 2001 report and provided us timeframes for
completion of these actions. Regarding our previous recommendation to improve
program accountability, we closed this recommendation based on FAA’s response
that the Office of Runway Safety reports quarterly to the FAA Administrator on
the progress that the lines of business have made in accomplishing their runway
safety objectives. We will continue to monitor FAA’s progress in completing the
remaining two recommendations from our June 2001 report.

Regarding our recommendations from this report, FAA concurred with
recommendation 1, to implement recommendations in its Runway Incursion
Airport Assessment Report made as a result of technological reviews of
16 problem airports. FAA indicated that it is working at the field level to
coordinate improvements to signs, surface markings, and security. Of the
16 airports, FAA has identified 6 airports for improved airport marking and
signs, and it indicated that work at 4 of these airports has been completed. FAA is
also working at other airports to test improvements to surface operations. FAA
plans to complete this work in 2004 and begin to work at higher capacity
commercial and general aviation airports in 2005.

For recommendation 2, FAA stated that work has already been directed to conduct
technology reviews at the 4 airports with 10 or more runway incursions over the
4-year period 1999 to 2002. FAA indicated the work will be completed in 2003.

When fully implemented, these actions should help further reduce runway
incursions. Accordingly, we consider FAA’s proposed actions to be responsive,
and we consider these recommendations resolved.




Findings and Recommendations                                                    27
EXHIBIT A. ORGANIZATIONS VISITED OR
CONTACTED
We conducted site visits and interviewed air traffic managers and controllers at
FAA Headquarters in Washington, D.C.; four FAA regional offices; and nine air
traffic control facilities listed below. We also interviewed runway safety
managers at three regional offices.


FAA REGIONAL OFFICES
Eastern, Jamaica, NY
Great Lakes, Des Plaines, IL
Southern, College Park, GA
Western-Pacific, Hawthorne, CA


FAA FACILITIES
Atlanta en route center1
Chicago en route center
Indianapolis en route center
Los Angeles en route center
New York (stand-alone) TRACON2
Atlanta TRACON/tower3
Baltimore-Washington TRACON/tower
Chicago-O’Hare tower
Philadelphia TRACON/tower

We also interviewed representatives from NATCA and NTSB.




1
    Air Route Traffic Control Centers (ARTCC or en route facilities) provide air traffic control (ATC) services for the
    en route phase of flights, generally above 10,000 feet.

2
    Terminal Radar Approach Control (TRACON) facilities provide ATC approach control services within about 5 to
    40 miles of an airport.

3
    Control towers (towers) provide ATC services within about 5 miles of an airport (including take-offs, landings, and
    ground control).


Exhibit A. Organizations Visited or Contacted                                                                      28
EXHIBIT B. STATISTICAL CORRELATION
ANALYSIS OF OPERATIONAL ERRORS BY
FACILITY
For the 27 facilities that had the most operational errors in FY 2002 as shown in
Exhibit C, 24 had decreases in air traffic operations. Twelve of these 24 facilities
had increases in operational errors and 12 had decreases. However, our statistical
correlation analysis indicated that there was a correlation between the number of
air traffic operations and operational errors.

To illustrate, the chart below shows that of the 11 facilities that had a 5 percent or
more decrease in operations, 5 facilities had a decrease in operational errors, and
6 facilities had an increase in operational errors. The reason our analysis still
showed a correlation between errors and operations is that the total number of
operational errors and corresponding increases for the latter six facilities were
small when compared to the five facilities whose errors decreased. For example,
only 1 of these 6 facilities had more than 20 operational errors, and the biggest
increase in errors at these 6 facilities was only 5.


Facilities With a 5 Percent or More Reduction in Operations
                                 Percent                               Decrease/
                                Decrease in    FY 2001     FY 2002      Increase
  Facility                      Operations      Errors      Errors     in Errors
  Decreases in Errors
  Washington Center                 7%            92           60          -32
  Los Angeles Center                7%            52           28          -24
  Boston Center                     6%            25           16           -9
  Oakland Center                    5%            23           22           -1
  New York TRACON                   5%            62           32          -30

  Increases in Errors
  Minneapolis TRACON                8%             6            8           +2
  Miami TRACON/Tower                7%            11           12           +1
  Dulles TRACON/Tower               7%             7            9           +2
  Detroit TRACON                    5%             3            8           +5
  New York Center                   5%            41           44           +3
  Houston Center                    5%             9           14           +5




Exhibit B. Statistical Correlation Analysis of Operational Errors by
Facilit y                                                            29
     EXHIBIT C. TOP 25 RANKINGS OF FACILITIES
     WITH OPERATIONAL ERRORS FOR FY 2002
                                                                                                                            Percent
                                                                                    Number Number                          Increase/
                                                                                    of Errors of Errors                    Decrease
 Rank                Facility                                                       FY 2001 FY 2002                        FY01/02
       1       Cleveland ARTCC                                                           64       68                           6%
       2       Indianapolis ARTCC                                                        39       66                          69%
   (tie)       Chicago ARTCC                                                             72       66                          -8%
       4       Atlanta ARTCC                                                             56       61                           9%
       5       Washington ARTCC                                                          92       60                         -35%
       6       New York ARTCC                                                            41       44                           7%
       7       Memphis ARTCC                                                             37       38                           3%
       8       Fort Worth ARTCC                                                          28       36                          29%
       9       New York TRACON*                                                          62       32                         -48%
     10        Denver ARTCC                                                              24       31                          29%
     11        Los Angeles ARTCC                                                         52       28                         -46%
     12        Jacksonville ARTCC                                                        36       27                         -25%
   (tie)       Kansas City ARTCC                                                         32       27                         -16%
     14        Miami ARTCC                                                               26       24                          -8%
     15        Oakland ARTCC                                                             23       22                          -4%
     16        Albuquerque ARTCC                                                         19       17                         -11%
     17        Boston ARTCC                                                              25       16                         -36%
     18        Houston ARTCC                                                              9       14                          56%
     19        Philadelphia TRACON/Tower*                                                17       13                         -24%
     20        Miami TRACON/Tower*                                                       11       12                           9%
   (tie)       Minneapolis ARTCC                                                         18       12                         -33%
     22        Salt Lake ARTCC                                                           21       11                         -48%
     23        Washington-Dulles TRACON/Tower*                                            7        9                          29%
   (tie)       Atlanta TRACON/Tower*                                                     10        9                         -10%
     25        Detroit TRACON*                                                            3        8                         167%
   (tie)       Minneapolis TRACON*                                                        6        8                          33%
   (tie)       Anchorage ARTCC                                                            5        8                          60%

                       Total Top 25 ranking (27 facilities)                                835             767                  -8%

                       Nationwide Total                                                 1,194           1,061                 -11%
Note: Facilities in bold face were visited during our review.
Shaded facilities (13) made no progress in reducing errors from FY 2001 to FY 2002.
* TRACON and tower facilities are commonly referred to as terminals. Some TRACON and tower facilities are combined into one facility
while others are separate facilities. Therefore, it is important to know whether or not an airport has both a TRACON and a tower or only a
tower when comparing the number of operational errors with those of other airports.




     Exhibit C. Top 25 Rankings of Facilities With Operational Errors for
     FY 2002                                                            30
EXHIBIT D. AIRPORTS WITH 10 OR MORE
RUNWAY INCURSIONS FROM 1999 TO 2002

                                       Total
                                    Incursions      AMASS                      Technology
                                       Over        Scheduled/     ASDE-X***      Review
Number       Airport/Location         4 Years    Commissioned**    Scheduled   Conducted
   1     N. Las Vegas, NV               35                                         8/01
   2     Ft. Lauderdale Exec., FL       34                                        10/01
   3     Los Angeles, CA                32            9/01          FY 05
   4     Orange County, CA              31                          FY 06
   5     St. Louis, MO                  27           12/01          FY 05
   6     Long Beach, CA                 26                                      Ongoing
   7     Concord, CA                    24                                       3/02
   8     Phoenix, AZ                    24                          FY 04
   9     Chicago O’Hare, IL             22           11/01          FY 05
  10     Boston, MA                     20            1/02
  11     Dallas-Ft. Worth, TX           18           3/03           FY 05
  12     San Diego/Mont., CA            18                                        3/02
  13     San Francisco, CA              17            6/01
  14     Crystal, MN                    15                                        6/02
  15     Merrill Field, AK              15                                       10/01
  16     Las Vegas, NV                  14           12/02
  17     Newark, NJ                     14            2/02
  18     Atlanta, GA                    14            4/02          FY 05
  19     Denver/Jeffco, CO*             13
  20     Minneapolis, MN                13            3/03
  21     Santa Barbara, CA              13                                        3/02
  22     Seattle, WA                    13           11/01
  23     Teterboro, NJ                  13                                        6/02
  24     Centennial, CO                 12                                        6/02
  25     Daytona Beach, FL              12                                       10/01
  26     Prescott, AZ*                  12                            .
  27     Midway, IL                     11                          FY 06
  28     Fresno, CA*                    11
  29     LaGuardia, NY                  11           12/02
  30     San Juan, PR                   11                          FY 07




Exhibit D. Airports With 10 or More Runw ay Incursions From 1999
to 2002                                                          31
                                           Total
                                        Incursions       AMASS                               Technology
                                           Over         Scheduled/          ASDE-X***          Review
Number          Airport/Location          4 Years     Commissioned**         Scheduled       Conducted
  31        Salt Lake City, UT              11            11/01
  32        Detroit Metro, MI               10             6/01
  33        Milwaukee, WI                   10                                 FY 03
  34        J F Kennedy, NY                 10               4/02
  35        Knoxville, TN                   10                                                  12/01
  36        Palm Beach, FL*                 10
  37        San Jose, CA                    10                                 FY 05
  38        Providence, RI                  10                                 FY 04

Note: The shaded airports were not scheduled to receive any technology prior to our June 2001 report. FAA has
since completed technological reviews at these airports and published its findings and recommendations
regarding these airports on January 29, 2003. Flying Cloud Airport, Minnesota, and Deer Valley, Arizona, were
also identified as 2 of the 13 problem airports in our June report based on 1997 to 2000 runway incursion data.
A technology review was performed at these airports in 2001 and 2002, respectively. In addition to the
13 airports identified in our 2001 report, FAA conducted technology reviews at airports in Fairbanks, Alaska,
Sarasota, Florida, and Knoxville, Tennessee.

* Bolded airports are not currently scheduled to receive any technology
** Bolded date means that AMASS has been commissioned at that airport.
*** ASDE-X—Airport Surveillance Detection Equipment-Model X




Exhibit D. Airports With 10 or More Runw ay Incursions From 1999
to 2002                                                          32
  EXHIBIT E. STATUS OF DECEMBER 2000
  RECOMMENDATIONS REGARDING
  OPERATIONAL ERRORS
     RECOMMENDATIONS TO BE                            FAA’S CURRENT STATUS
             IMPLEMENTED                             AS OF FEBRUARY 28, 2003
1. Develop a method to determine the 1. Closed: FAA implemented the Operational
   severity, or collision hazard, of           Error Severity Rating System on April 27,
   operational errors that occur in the air so 2001.
   it can focus its resources and take action
   based on the severity of these incidents.
2. Require regions to (a) prepare and 2. Closed: FAA Notice (N7210.514), issued on
   periodically update operational error       August 9, 2001, directed regional offices to
   prevention plans based on the facility      review existing regional quality assurance
   assessments which identify specific         (QA) programs and develop new or revise
   actions needed to reduce operational        existing orders.
   errors, and (b) follow up to ensure
   deficiencies identified during regional
   reviews are corrected.
3. Require the Air Traffic Services 3. Closed: FAA Notice (N7210.514) issued on
   Evaluation and Investigations Staff to      August 9, 2001, described Headquarters’
   review and approve regional operational     oversight to include reviews of regional and
   error prevention plans, complete the        selected facility QA programs to ensure
   national reviews of facilities with         compliance with this Notice. In FY 2001,
   increasing trends in operational errors,    FAA completed 23 national reviews of
   and ensure that recommendations             facilities with increasing trends in
   resulting from the national reviews are     operational errors. Despite this guidance, we
   implemented and effective at reducing       found that the review and approval of
   operational errors.                         regional plans were not completed and no
                                               follow-up mechanism was in place to ensure
                                               that recommended corrective actions were
                                               taken and effective. New recommendations
                                               have been made in this report.

4. Implement NTSB’s recommendation to 4. Closed: FAA officials believed it would
   extend the retention period for voice create a storage problem for facilities without
   communication and radar tapes from 15 updated technology to extend their tape
   to 45 days.                           retention period. However, FAA agreed to
                                         immediately retain voice tapes and radar data
                                         for 45 days of all known or suspected
                                         incidents to facilitate investigations and
                                         analysis of these incidents.



  Exhibit E. Status of December 2000 Recommendations Regarding
  Operational Err ors                                                                33
  EXHIBIT F. STATUS OF JUNE 2001
  RECOMMENDATIONS REGARDING RUNWAY
  INCURSIONS
    RECOMMENDATIONS TO BE                            FAA’S CURRENT STATUS
             IMPLEMENTED                             AS OF FEBRUARY 28, 2003
1. Expedite the use of in-cockpit surface 1. Open:* A decision has not been made to
   moving map displays and Automatic           expedite surface moving map and ADS-B
   Dependent Surveillance - Broadcast          technologies that will assist pilots in
   (ADS-B) for use by pilots in reducing       preventing runway incursions.         A joint
   runway incursions.          FAA should      industry and Government team is developing
   determine if its process to certify new     an implementation plan, but actual
   equipment for safe operation could be       implementation of moving map displays is
   accelerated      to     expedite      these uncertain due to the financial impact on the
   technologies. FAA should also issue an      airlines of reduced air travel since early
   Advanced       Notice      of     Proposed  2001. Meanwhile, FAA is working with
   Rulemaking to obtain comments from          industry to develop a portable surface
   the airline industry and general aviation   moving map. These maps can be used with
   community on implementing in-cockpit        Electronic Flight Bags, which display
   moving map displays and ADS-B.              aviation data that was previous obtained
                                               from paper documents or an airline’s flight
                                               dispatch function.
2. Develop a realistic schedule to 2. Closed:              FAA revised its schedule on
   commission the remaining 32 AMASS           September 27, 2001.
   sites. The current schedule is unlikely
   to be met unless Airway Facilities
   resources are adequate to commission
   the remaining sites and time is allowed
   to ensure controller acceptance of
   AMASS.
3. Determine whether some airport needs 3. Closed: FAA completed its review on
   for     Airport      Surface     Detection  September 5, 2001, and determined that a
   Equipment, Model X (ASDE-X) can be          full ASDE-X system was needed for each
   met by radar alone. After airport needs     airport.
   are identified, FAA should revise its
   ASDE-X cost and schedule baseline.
4. Complete its evaluations of the 4. Open:* FAA completed its initial evaluation
   six emerging technologies it has            and demonstration of six emerging, low-cost
   identified to assist controllers and pilots technologies. FAA issued a report of its
   in reducing runway incursions, and          findings and recommendations in July 2002
   advance the ones most likely to reduce      and recommended that three of the six low-
   runway incursions quickly to high-risk      cost technologies be further evaluated.
   airports.

  Exhibit F. Status of June 2001 Recommendations Regarding
  Runw ay Incursi ons                                                                34
 5. Conduct reviews at the 13 airports that 5. Closed: FAA has completed technology
    had 10 or more runway incursions over      reviews at these 13 airports. FAA published
    the past 4 years to determine whether      its findings and recommendations on
    technological solutions are needed. [In    January 29, 2003.
    our June 2001 report, we identified that
    13 of the 37 airports with 10 or more
    runway incursions from CY 1997 to CY
    2000, did not have AMASS or ASDE-X
    scheduled for implementation.]
 6. Provide the Runway Safety Program 6. Closed:*           FAA identified new runway
    Director with authority to ensure that     incursion objectives in its 2002-2004
    employees from other lines of business     Runway Safety Blueprint, issued in July
    complete tasks to reduce runway            2002.     Runway Safety Office officials
    incursions on time. An accountability      believe FAA’s ability to meet future
    mechanism, such as directing the           milestones in implementing runway safety
    Runway Safety Program Director to          objectives will be improved with the
    provide     input     on    individuals’   implementation of its Blueprint and the
    performance appraisals and bonuses,        process it will use to monitor the status of
    should be developed to hold people         objectives in the plan. However, FAA did
    involved      with     runway     safety   not provide the Runway Safety Program
    accountable for completing initiatives     Director with the authority or a mechanism
    within established milestones.             to ensure that employees from other lines of
                                               business complete tasks to reduce runway
                                               incursions on time.

 7. Measure whether initiatives are effective 7. Closed: In August 2001, FAA established a
    in addressing the causes of runway           database for tracking and following up on
    incursions, and periodically assess          recommendations made during runway
    regional efforts to ensure that progress is  safety reviews of specific airports. This
    being made to reduce runway incursions       database, along with FAA’s runway
    at specific airports.                        incursion database, is used to track the
                                                 effectiveness of initiatives at specific
                                                 airports. FAA also uses the database, weekly
                                                 telecons, and quarterly program reviews to
                                                 monitor regional activity and progress.


* FAA’s March 21, 2003 response to our report identified additional actions FAA has taken
  to address recommendations 1, 4, and 6 from our June 2001 report. Regarding
  recommendation 6, to improve program accountability, we closed this recommendation
  based on FAA’s response that the Office of Runway Safety reports quarterly to the FAA
  Administrator on the progress that the lines of business have made in accomplishing their
  runway safety objectives. See pages 42 through 44, FAA response numbers 1, 2, and 3 for
  details.




   Exhibit F. Status of June 2001 Recommendations Regarding
   Runw ay Incursi ons                                                                  35
EXHIBIT G. MAJOR CONTRIBUTORS TO THIS
REPORT
  THE FOLLOWING INDIVIDUALS CONTRIBUTED TO THIS REPORT.



  Name                            Title

  Richard Kaplan                  Program Director

  Mary E. (Liz) Hanson            Project Manager

  James Madden                    Senior Auditor

  Kevin George                    Analyst

  Curt Boettcher                  Analyst

  Jeannette McDonald              Analyst

  Petra Rose                      Senior Statistician

  Eric Whipkey                    Statistician

  Shirley Murphy                  Editor




Exhibit G. Major Contributors to This Report              36
       APPENDIX. MANAGEMENT COMMENTS



                                                 Memorandum
Subject:   INFORMATION: Draft Report on Operational                        Date:    March 21, 2003
           Errors and Runway Incursions: Recent Progress
           Has Been Made, But the Number of Incidents is Still
           Too High Considering the Serious Safety Risks
   From:   Associate Administrator for Air Traffic Services,            Reply to
                                                                        Attn. of:
              ATS-1
    To:    Assistant Inspector General for Aviation Audits

           This memorandum is in response to the second draft report received on February 27,
           2003, entitled “Operational Errors and Runway Incursions: Recent Progress Has Been
           Made, but the Number of Incidents Is Still Too High Considering the Serious Safety
           Risks.”

           We acknowledge the findings and recommendations in this draft report and have
           included our comments as two separate attachments. Many of your recommendations
           have programmatic and budgetary impacts. As you are aware, we are in the midst of
           creating a new strategic plan and prioritizing our budget. Both of which may impact
           our reply to the final report.




           Steven J. Brown

           Attachments




       Appendix. Management Comment s                                                        37
FAA Comments Regarding Operational Errors To Draft OIG Report: Operational
Errors And Runway Incursions: Recent Progress Has Been Made, But The Numbers Of
Incidents Is Still Too High Considering The Serious Safety Risks

   1) Reexamine the decision to assign only an 11-point range (90 to 100) for high
      severity errors and expand the range below the 90-point lower limit so that
      resources are focused on all errors that pose a very serious safety risk.

      FAA Response: The current point values associated with the severity ratings
      were based on scientific assessment. Initially, three categories were developed
      and operational errors were rated as High Moderate or Low. These categories
      were further refined into: A, High Severity. B Moderate Severity, uncontrolled. C,
      Moderate Severity, controlled and D, Low Severity. While we believe these
      categories accurately rate the degree to which a separation standard was violated,
      we will work with Dr. Mark Rodgers (FAA’s Chief Scientist for Human Factors)
      to scientifically validate the point values.

   2) Take action in conjunction with NATCA, to rescind applicable provisions of
      the January 17, 2001 MOU and its April 27, 2001 addendum that revised the
      training requirements for operational errors and precluded managers from
      revoking or suspending controller Control Tower Operator licenses and
      Facility Ratings based on performance deficiencies.

      (See attached comments on page 46 provided by FAA on March 28, 2003)

   3) Revise FAA Air Traffic Quality Assurance Order 7210.56C to:
         a. require that controllers who are involved in multiple errors receive
             training,
         b. require that controllers who have moderate and high rated
             operational errors receive training, and
         c. eliminate the provision that precludes managers from revoking or
             suspending controller Control Tower Operator licenses and Facility
             Ratings based on performance deficiencies

      (See attached comments on page 46 provided by FAA on March 28, 2003)


   4) Establish procedures to monitor, at the national level, the impact that the
      expanded CIC program and reduction in the number of supervisors has had
      on operational errors on a facility-by-facility basis.

      FAA Response: We agree with the recommendation and will include it in the
      agency's OE causative analysis efforts.



Appendix. Management Comment s                                                       38
  5) Improve national and regional oversight by:

        a. ensuring a National Program Manager for Quality Assurance is
           assigned to provide oversight of regional efforts to reduce operational
           errors,
        b. completing the review and approval of regional operational error
           reduction programs,
        c. conducting reviews of regional quality assurance offices to ensure
           regions are complying with their plans and are held accountable for
           addressing facilities in their regions that do not show progress at
           reducing operational errors, and
        d. establishing clear guidelines for identifying and tracking operational
           error related deficiencies identified during facility evaluations to
           ensure these deficiencies are treated consistently among FAA’s
           Evaluation offices.

     FAA Response:

        a. We agree with this recommendation and we have established a permanent
           National Program Manager for Quality Assurance (AAT-20). Although
           the individual was temporarily detailed to another critical position, the
           detail was completed in November 2002 and we have resumed the
           function of providing oversight of regional efforts to reduce operational
           errors.

        b. We are completing the review and approval of regional Quality Assurance
           orders and programs designed to reduce operational errors. We estimate
           that the review of all regional QA orders will be completed by April 15,
           2003.

        c. The National Program Manager for Quality Assurance will continue to
           conduct reviews of regional quality assurance orders as well as regional
           OE reductions plans and efforts. These QA Orders and OE reduction
           plans will also be maintained in the appropriate Evaluation Branch Office
           and used during facility evaluations. Regional Air Traffic Division
           Managers are held accountable as a portion their performance appraisal is
           based on operational error reduction and preventions.

        d. AAT-20 concurs with the recommendation of consistency among the three
           branches. In an effort to establish clear guidelines, a revision to the
           Evaluations Order (7010.1) is currently in coordination. The changes will
           establish an evaluation checklist that is focused on system safety, system
           efficiency and system management. We plan to have this order in place
           by May 1, 2003. Additionally, AAT-20 is revising the Standard Operating
           Procedures (SOP) to align the SOP with the revised order and to provide




Appendix. Management Comment s                                                    39
             for standardization among the branch offices. The changes to the SOP
             should also be effective by May 1, 2003.

  6) Establish a mechanism to ensure responsible parties are held accountable for
     completing initiatives in FAA’s 3-year Plan for Operational Error
     Prevention in a timely manner.

     FAA Response: We have made progress in establishing accountability for
     prevention of operational errors. For example, a portion of each Air Traffic
     Division Manager’s performance appraisal is based on operational error
     reduction/prevention. Additionally, the goal of reducing operational errors is tied
     to the compensation package for senior executives in Air Traffic Services. The
     facility evaluation process is also under revision and should be completed by May
     1, 2003. The revision will more closely align the facility evaluation process with
     the executive compensation objectives in areas of system safety, system
     efficiency and system management.

  7) Expand and implement nationwide the human factors initiative for memory
     enhancement training.

     FAA Response: We concur with the OIG recommendation and believe that
     significant reductions in operational errors may be achieved as a result of a better
     understanding of Human Factors and through the development of new training
     initiatives focused on enhancing cognitive skills such as memory and awareness.
     Two efforts are currently underway:

  1) The JANUS (Human Factors) procedure has been beta tested using actual
     operational errors. JANUS was developed by the Civil Aeronautical Medical
     Institute (CAMI) and is a tool that may provide better understanding of
     operational error causal factors and facilitate development of appropriate training.
     FAA has beta tested JANUS in over 70 actual operational errors; validation of the
     tool is expected in March/April, 2003.

  2) National Air Traffic Professionalism (NATPRO) is a new training approach
     designed to exercise the mind to improve concentration rather than relying solely
     on knowledge-based intervention. This project will utilize an interactive
     computer based cognitive skills program that facilitates skill building and
     increases controller awareness of mental skills affecting performance. FAA is
     identifying two facilities to beta test the concept of using an “Awareness
     Seminar” coupled with computer skills training to enhance the learning process
     on the subject of concentration. Our goal is to increase the controller’s awareness
     of mental skills affecting performance and to involve them in an interactive
     program that promotes learning in this area.




Appendix. Management Comment s                                                         40
     Some of the functions this type of training will address are awareness, memory
     improvement, performance management and coaching. The following represents
     the progress of this project.
     -      Feasibility study completed on September 15, 2002
     -      Seminar/Practicum Core Framework completed December 12, 2002
     -      Product roll-out was completed on March 20, 2003
-           Phase four will be limited field delivery (beta testing the product)
            expected to begin in April 2003.
-           Beta testing will include site preparation, installation of the NATPRO
            programs in the skill lab, a coach’s clinic and finally a Pilot/Metric
            evaluation.

     It should be noted that funding to support the development and evaluation of these
     tools is crucial to the success of this outcome.




Appendix. Management Comment s                                                      41
FAA Response To Runway Incursion Recommendations In Draft OIG Report:
Operational Errors And Runway Incursions: Recent Progress Has Been Made, But The
Numbers Of Incidents Is Still Too High Considering The Serious Safety Risks

The FAA concurs with the OIG recommendations regarding runway incursions and will
continue to advance these recommendations in the near and long term. Our specific
replies to your draft report recommendations are listed below:

   1) Advance the low-cost technologies most likely to reduce runway incursions
      quickly to high-risk airports.

   FAA response: The FAA has completed an initial evaluation and demonstration of six
   emerging, low-cost technologies, and recommended that three of the six be further
   evaluated: Flashing Precision Approach Path Indicator (PAPI), Ground Marker
   technologies, and Addressable Message Boards. Thus far, we have demonstrated that
   the mechanisms of the various technologies can work as envisioned. However, these
   three technologies are still in the research and development (R&D) phase, and need to
   be further developed and evaluated.

   Next, we would need to determine that the systems are cost beneficial and that there
   is a cause and effect relationship between the individual technologies and the
   reduction of runway incursions. Finally, a larger operational evaluation would be
   essential before any technology is integrated into the national airspace system (NAS).

   The current status of the three technologies is as follows:

      • Flashing PAPI lights
      The FAA completed a demonstration at Long Beach, CA, in September 2002, and
      is presently developing a strategy to transition the flashing PAPI technology into
      an acquisition program. While we are encouraged about the system, success is
      dependent upon the development of a reliable and affordable sensor to enable
      NAS integration. A sensor has not yet been identified, but we conducting an
      evaluation for a potential candidate.

      • Ground Marker technologies
      The Ground Marker system design was modified to address technical issues
      identified during the initial demonstration. A preliminary system design review
      was conducted in December 2002. The FAA awarded a follow-on contract for
      Ground Marker system engineering, integration, and installation in February
      2003. Performance of this contract will lead to a prototype Ground Marker
      system installation at one airport by September 2003.

      • Addressable Message Boards



Appendix. Management Comment s                                                        42
     These message boards have completed the proof of concept phase, and further
     development is warranted. However, substantive issues regarding compatibility
     to the airport environment and system performance have been raised that we
     believe can be accommodated. Simulation to evaluate concerns is scheduled for
     September – December 2003.

  Recognizing that the above technologies have protracted R&D timeframes, we are
  engaging in other projects with quicker turnaround potential to improve pilot
  situational awareness. Below are two examples:

     • An analysis of paint enhancements in the hold line environment is planned for
     the Providence, RI airport with an initial evaluation scheduled in 2003. A joint
     industry-government work group has already completed simulation work, which
     validated the paint enhancements.

     • Enhanced lighting will be evaluated at airfield intersections at the North Las
     Vegas, NV airport. Site preparation is scheduled in April 2003 with construction
     in September 2003.

  2) Expedite technologies, such as in-cockpit surface moving map displays, to aid
     pilots in reducing runway incursions.

  FAA response: On March 17, 2003, FAA published Advisory Circular (AC) 120-
  76A, Guidelines for the Certification, Airworthiness, and Operational Approval of
  Electronic Flight Bag Computing Devices. This guidance is key to providing a low-
  cost tool for the prevention of accidents on the airport surface, the availability of an
  electronic moving map.

  To support the eventual integration of moving maps, the FAA has developed a digital
  map database, has published 40 airfield surface maps to date, and expects to complete
  78 maps by December 2003. An additional 80 maps are planned for 2004. These
  maps can be used with Electronic Flight Bags, which display aviation data that was
  previously obtained from paper documents.

  More work needs to be done to implement “ownership” position on the moving map,
  and to make the technology more affordable. The Commercial Aviation Safety Team
  (CAST), a joint industry and government team, is developing an implementation plan,
  but has not reached consensus on implementation largely due to the current projected
  financial burden on the industry.

  3) Provide the Runway Safety Program Director with authority to ensure that
     employees from other lines of business complete tasks to reduce runway
     incursions on time. An accountability mechanism, such as directing the
     Runway Safety Program Director to provide input on individuals’
     performance appraisals and bonuses, should be developed to hold people




Appendix. Management Comment s                                                           43
     involved with runway safety accountable for completing initiatives within
     established milestones.

  FAA response: The Administrator has directed that performance standards of the key
  senior executives agency-wide delineate accountability for runway incursion risk
  reduction. Specifically, the Associate Administrator for Air Traffic Services is
  accountable for the reduction of runway incursions and the related risk resulting from
  operational errors. The Associate Administrator for Regulation and Certification is
  accountable for the reduction of runway incursions and the related risk resulting from
  pilot deviations. The Associate Administrator for Airports is accountable for the
  reduction of runway incursions and the related risk resulting from vehicle and
  pedestrian deviations. The Associate Administrator of Research and Acquisitions is
  accountable for the development and implementation of runway safety technologies
  to reduce the risk of runway incursions to the traveling public.

  Further, Category A and B runway incursions are an FAA GPRA sub-goal that
  receives attention and focus in DOT, government and industry. Within FAA, the
  GPRA Runway Incursion Performance Measure has been widely integrated into the
  senior executives’ compensation package.

  The Office of Runway Safety (ARI) continues to provide analysis and develop
  strategy to identify collision risk on the runway and influence its resolution. ARI
  reports quarterly to the Administrator with an evaluation of the lines of business
  (LOBs) progress on accomplishing their runway safety objectives to reduce runway
  incursions.

  4) Implement recommendations in its Runway Incursion Airport Assessment
     Report, published January 29, 2003, made as a result of technological
     reviews of the 13 problem airports identified in our 2001 report.

  FAA response: The FAA conducted assessments at 16 airports (including the 13
  problem airports identified in the OIG’s 2001 report), and categorized four primary
  areas: 1) lack of perimeter security, which results in unrestricted vehicle access to the
  airport movement area; 2) complex and confusing airport layouts; 3) inadequate
  surface markings and signs; and 4) opportunities for low-cost technology
  enhancements.

  We are working at the field level to coordinate improvements to security, surface
  markings and signs. Of the six airports identified for improved surface
  markings/signs, four have been completed (Deer Valley Municipal Airport, AZ;
  Flying Cloud Airport, MN; Montgomery Field, CA; and North Las Vegas Airport,
  NV) and two are in progress (Denver Centennial Airport, CO; and Concord Buchanan
  Airport, CA). Analyses are underway at the Seattle-Tacoma Airport, WA and at the
  Atlanta-Hartsfield Airport, GA to understand factors impacting safety and efficiency
  relative to airport taxiway layout with the expected outcome of revised taxiway
  designs and procedural modifications. Another effort is planned for Concord



Appendix. Management Comment s                                                           44
  Buchanan Airport, CA that will focus on alternatives to simplify the configuration of
  this airport. Our intent is to use this work to prototype improvements to surface
  operations in the NAS. The strategy is to complete the prototype work in 2004 and
  begin to selectively work through the higher capacity commercial and general
  aviation airports in 2005.

  5) Conduct reviews at the 4 airports that had 10 or more runway incursions
     over the 4-year period 1999 to 2002 to determine whether technological
     solutions are needed.

  FAA response: This work has already been directed, and will be completed in 2003.
  We will conduct assessments at Denver/Jeffco, Colorado; Prescott, Arizona; Fresno,
  California; and Palm Beach, Florida airports to determine whether technological or
  non-technological solutions would be beneficial in reducing runway incursion risk.
  When the assessments are complete, a new report with the findings and actions will
  be produced.




Appendix. Management Comment s                                                       45
FAA Revised Comments Regarding Operational Errors Dated March 28, 2003

   2) Take action in conjunction with NATCA, to rescind applicable provisions of
       the January 17, 2001 MOU and its April 27, 2001 addendum that revised the
       training requirements for operational errors and precluded managers from
       revoking or suspending controller Control Tower Operator licenses and
       Facility Ratings based on performance deficiencies.

      FAA Response: We are currently involved in a review of our existing MOUs.
      The provisions of this particular MOU will be re-examined as part of this process.

   3) Revise FAA Air Traffic Quality Assurance Order 7210.56C to:
         a. require that controllers who are involved in multiple errors receive
             training,
         b. require that controllers who have moderate and high rated
             operational errors receive training, and
         c. eliminate the provision that precludes managers from revoking or
             suspending controller Control Tower Operator licenses and Facility
             Ratings based on performance deficiencies

      FAA Response:

         a. Addressed under OIG recommendation 2.

         b. Addressed under OIG recommendation 2.

         c. Addressed under OIG recommendation 2.




Appendix. Management Comment s                                                       46
